<html>
<title> - RECOVERY, RESILIENCY AND READINESS: CONTENDING WITH NATURAL DISASTERS IN THE WAKE OF CLIMATE CHANGE. (CLIMATE CHANGE PART III)</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                  RECOVERY, RESILIENCY AND READINESS:
                   CONTENDING WITH NATURAL DISASTERS
                     IN THE WAKE OF CLIMATE CHANGE
                       (CLIMATE CHANGE PART III)

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                               AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 25, 2019

                               __________

                           Serial No. 116-38

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    


                 Available on: http://www.govinfo.gov,
                   http://www.house.oversight.gov, or
                       http://www.docs.house.gov
                       
                       
                                   __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-262 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ccbca38cafb9bfb8a4a9a0bce2afa3a1e2">[email&#160;protected]</a>                               
                       
                       
                       
                       
                       
                       
                   COMMITTEE ON OVERSIGHT AND REFORM

                 ELIJAH E. CUMMINGS, Maryland, Chairman

Carolyn B. Maloney, New York         Jim Jordan, Ohio, Ranking Minority 
Eleanor Holmes Norton, District of       Member
    Columbia                         Justin Amash, Michigan
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Katie Hill, California               Michael Cloud, Texas
Debbie Wasserman Schultz, Florida    Bob Gibbs, Ohio
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Chip Roy, Texas
Robin L. Kelly, Illinois             Carol D. Miller, West Virginia
Mark DeSaulnier, California          Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Kelly Armstrong, North Dakota
Stacey E. Plaskett, Virgin Islands   W. Gregory Steube, Florida
Ro Khanna, California
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
             Britteny Jenkins, Subcommittee Staff Director
                     Joshua Zucker, Assistant Clerk

               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051

                      Subcommittee on Environment

                   Harley Rouda, California, Chairman
Katie Hill, California               James Comer, Kentucky, Ranking 
Rashida Tlaib, Michigan                  Minority Member
Raja Krishnamoorthi, Illinois        Paul Gosar, Arizona
Jackie Speier, California            Bob Gibbs, Ohio
Jimmy Gomez, California              Clay Higgins, Louisiana
Alexandria Ocasio-Cortez, New York   Kelly Armstrong, North Dakota
                         
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on June 25, 2019....................................     1

                               Witnesses

Mr. James Witt, Former Director, Federal Emergency Management 
  Agency
    Oral statement...............................................     5

Mr. Christopher Currie, Director, Emergency Management, Disaster 
  Recovery & DHS Management Issues, on behalf of U.S. Government 
  Accountability OFfice
    Oral statement...............................................     6

Dr. Michael Mann, Distinguished Professor of Meteorology, 
  Director, Earth System Science Center, on behalf of The 
  Pennsylvania State University
    Oral statement...............................................     8

Dr. Judith Curry, President, Climate Forecast Applications 
  Network
    Oral statement...............................................    11
Mr. Stephen Costello, Chief Recovery Officer, City of Houston
    Oral statement...............................................    24

Adrienne Williams-Octablien, Director, Office of Disaster 
  Recovery, on behalf of Virgin Islands Public Finance Authority
    Oral statement...............................................    26

Mr. Mark Ghilarducci, Director, California Governor's Office of 
  Emergency Services
    Oral statement...............................................    27

Mr. Omar Marrero, Executive Director, Central Office of Recovery 
  and Reconstruction of Puerto Rico
    Oral statement...............................................    29

The written opening statements and for witnesses are available 
  at: https://docs.house.gov.

                           Index of Documents

The documents listed below are available at: https://
  docs.house.gov.

* Email from William Happer to the Heartland Institute and NASA 
  Administrator Jim Bridenstine; submitted by Rep. Tlaib.


 
                  RECOVERY, RESILIENCY AND READINESS:
                   CONTENDING WITH NATURAL DISASTERS
                     IN THE WAKE OF CLIMATE CHANGE.
                       (CLIMATE CHANGE PART III)

                         Tuesday, June 25, 2019

                   House of Representatives
                        Subcommittee on Environment
               Committee on Oversight and Government Reform
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:55 p.m., in 
room 2154, Rayburn Office Building, Hon. Harley Rouda (chairman 
of the subcommittee) presiding.
    Present: Representatives Rouda, Hill, Tlaib, 
Krishnamoorthi, Speier, Ocasio-Cortez, Comer, Higgins, and 
Armstrong.
    Also present: Representatives Jordan, Plaskett, and 
Velazquez.
    Mr. Rouda. The subcommittee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    This subcommittee is convening our third in a series of 
climate change hearings focusing on recovery, resiliency, and 
readiness, contending with natural disasters.
    I now recognize myself for five minutes to give an opening 
statement.
    As I mentioned, this hearing is the third in the series on 
climate change that the Committee on Oversight and Reform 
Subcommittee on Environment plans to hold this Congress.
    After examining the history of the scientific consensus on 
climate change and the public health effects of climate change 
in our first two hearings, today the subcommittee turns to the 
impact of climate change on natural disasters.
    This subcommittee has three goals today.
    First, we are going to illustrate how natural disasters are 
made both more intense and more frequent due to climate change. 
Climate change is real and we are constantly reminded of that 
fact in terrifying ways. Just two weeks ago, it was reported 
that Greenland lost 2 billion tons of ice on one day alone, 
which portends a possible record-breaking season of ice melt 
this year. Two billion tons of ice lost in a day, and we have 
got people still telling us not to worry, that climate change 
is not a problem.
    The American people know better, and they know because they 
are already suffering from the effects. Michael Mann, a 
renowned climate scientist, is here today to explain how and 
why we are seeing more intense hurricanes, more frequent 
wildfires, and more devastating flooding because of climate 
change.
    Our second goal today is to examine how the Federal 
Government could have responded better to the 2017-2018 spate 
of natural disasters, steps the Federal Government has taken to 
address these challenges, as well as explore ongoing recovery 
challenges, not to point fingers and cast blame, but rather 
because the best way to improve performance in the future is to 
implement the lessons from past mistakes.
    Third, we are going to assess how well FEMA and other 
Federal agencies, as well as regional and local governments, 
are prepared for not just the current hurricane and wildfire 
seasons, but also for the long term, given that climate change 
is causing more intense and frequent natural disasters. Every 
single one of us in this room wants FEMA to succeed, and we 
want to make sure that the agency has the tools and makes the 
changes necessary to do so.
    This subcommittee planned to have the Acting Deputy 
Administrator of FEMA, Dr. Daniel Kaniewski, testifying here 
today. This past Friday at 7 p.m., FEMA informed us that they 
were uncomfortable with the structure of the witness panel and 
thus would not be able to make it to the hearing. When 
subcommittee staff contacted FEMA on Monday morning to try to 
work out a solution, we were then informed that the doctor was 
unable to testify due to medical reasons. We extend our 
sympathies to the doctor and wish him a speedy recovery. The 
subcommittee plans on having him before the subcommittee as 
soon as he is able.
    We do not need to look very far to see the personal costs 
associated with natural disasters in the wake of climate 
change. A member of this subcommittee, Representative Katie 
Hill, was forced to evacuate her home last year as the Stone 
Fire ravaged her hometown. She and her husband were lucky 
enough to safely evacuate but, as we know, many were not so 
lucky. In fact, the past two seasons, 2017 and 2018, were the 
two deadliest wildfire seasons in U.S. history with major 
wildfires across at least nine states. It is also worth noting 
that these devastating fires also aggravate the impact of 
climate change through the release of large quantities of 
carbon dioxide and other greenhouse gases into our atmosphere.
    Hurricanes Harvey, Irma, and Maria hit Houston, the U.S. 
Virgin Islands, and Puerto Rico within just a month of each 
other in 2017, and the consequences were devastating. You know, 
we often hear our colleagues on the other side of the aisle 
tell us that we act like the sky is falling. And in this case, 
the sky was literally falling. Hurricane Harvey was the wettest 
storm on record, dumping 33 trillion gallons of water on the 
greater Houston area. Harvey was also the second costliest 
hurricane on record, second only to 2005's Hurricane Katrina, 
inflicting approximately $125 billion in damages.
    Irma cost more than $65 billion and knocked out power for 
as many as 16 million people. Maria was the deadliest storm in 
Puerto Rico since 1928, killing over 2,900 Americans and 
leaving the island without power. Puerto Ricans faced massive 
food shortages, and suicide crisis hotlines in Puerto Rico 
reported a 246 percent increase in suicide attempts from 
November 2017 through January 2018, compared with the same 
timeframe the previous year. Emails from the Department of 
Defense discuss the discovery of mass graves in areas hit by 
mudslides. The only hospital on one of the islands was 
destroyed by Maria, and two years later, it still has not been 
rebuilt.
    I could go on and on about the devastation wreaked by these 
disasters, and I know that every single person in this room's 
heart breaks at these stories. Many of us remember feeling the 
same way in August 2005, watching the shocking footage of the 
city of New Orleans after Hurricane Katrina. That was 14 years 
ago. I know some of us do not want to believe it, but these 
record-breaking storms and wildfires keep coming ever more 
often, ever more powerful.
    Responding to natural disasters is a much different beast 
than it was when FEMA was founded back in 1979. And one of the 
reasons why response and recovery has gotten so much more 
challenging since then is, obviously, climate change.
    In March 2018, FEMA removed all references of climate 
change from its four-year strategic plan. This decision is 
simply baffling. If we all know climate change is happening, 
surely it should factor into long-term strategic planning at 
our Nation's largest and most powerful disaster response 
agency. The Trump administration's own Fourth National Climate 
Assessment expects that the intensity of hurricanes, typhoons, 
wildfires and floods will increase as global warming continues. 
So we need to face the problem and help FEMA get the support it 
needs to adjust to this new reality and meet the needs of our 
fellow Americans.
    We have here with us today top emergency management 
officials from Puerto Rico, the U.S. Virgin Islands, Houston, 
Texas, and California. And we are going to let them tell us 
what they have seen and learned firsthand. Almost two years 
after Hurricanes Harvey, Irma, and Maria and after the first 
record-breaking wildfire swept across the West, what do their 
communities look like? How are people faring? What more needs 
to be done? How can we in Congress help them get the money they 
need to recover? And how can Federal agencies help them not 
only respond to immediate needs in the aftermath of these 
disasters, but rebuild their communities to be more resilient, 
equipping them to better handle the next disaster? Because it 
is not a question of ``if,'' it is a repeated question of 
``when,'' ``when,'' and ``when.''
    John Donne famously wrote that ``no man is an island entire 
of itself; every man is a piece of the continent, a part of the 
main.'' When one part of America suffers, we all do. When 
people in Houston, in Puerto Rico, in the Virgin Islands, in 
California lose their homes, their loved ones and their sense 
of stability and community, we all feel it.
    And so I want us to come out of this hearing today with a 
plan to diminish the suffering. We are dealing with massive 
stakes here. It is literally a matter of life and death. And at 
its core, that is exactly what this series on the effects of 
climate change is all about: life versus death. The choice is 
clear and we are determined to make the right one.
    Thank you very much, and I now invite my colleague, the 
subcommittee's ranking member, Mr. Comer, to give a five-minute 
opening statement.
    Mr. Comer. Well, good afternoon. And thank you, Chairman 
Rouda, for holding this hearing today.
    This committee has a long history of bipartisan oversight 
when examining the Federal responses to major natural 
disasters. This includes work dating back to the examination of 
the response to Hurricane Katrina and more recent efforts just 
last year looking at reforms designed to enhance FEMA's ability 
to quickly and efficiently respond when disaster strikes.
    In 2017, Hurricanes Harvey, Irma, and Maria hit the United 
States. Combined with wildfires in California, these natural 
disasters created an unprecedented demand for Federal disaster 
response and recovery resources. Geographical and other 
differences between the areas of the country most directly 
impacted by each event presented distinct challenges and 
required unique responses by local, state, and Federal 
responders.
    Since 2017 hurricane season, officials from all levels of 
government, along with countless businesses and nonprofits, 
have worked to repair roads, remove debris, restore power, and 
rebuild communities.
    I want to thank Mr. Currie from GAO for agreeing to appear 
today at this committee hearing. I look forward to hearing 
about changes and progress that FEMA has made in its effort to 
prepare for extreme weather events and help localities deal 
with their aftermath since Katrina and the 2017 hurricane 
season.
    Of course, I am interested also in new steps at Federal 
agencies and we here in Congress can take to better prepare for 
and respond to natural disasters of all types, what policy 
changes will reduce future vulnerability, empower communities, 
and allow for quicker and more seamless recovery.
    I also want to thank Dr. Curry and Dr. Mann for providing 
testimony to the committee today.
    I think it is important to note it seems every major 
weather event in recent years is followed almost immediately by 
claims on cable news channels and social media that its 
occurrence is directly linked to climate change. This 
overheated rhetoric can serve as a distraction from focusing on 
the proper role of the Federal response to these disasters, 
which is why this hearing is convened.
    It is clear from recent natural disasters that many parts 
of the country are very vulnerable to weather extremes. It is 
my hope that efforts to spur continued improvements in weather 
forecasting will lead to an ability for communities to better 
prepare. Still, natural disasters have been and will continue 
to be a reality of the world that we live in. Inevitably the 
United States will face another devastating storm or natural 
disaster. That is why advanced planning, informed by lessons 
learned from previous disasters is critically important.
    With that, Mr. Chairman, I yield back.
    Mr. Rouda. Thank you.
    Now I want to welcome our witnesses: James Lee Witt, former 
Director, Federal Emergency Management Agency; Christopher P. 
Currie, Director, Emergency Management Disaster Recovery and 
DHS Management Issues, Homeland Security and Justice Team, U.S. 
Government Accountability Office; Dr. Michael E. Mann, 
Distinguished Professor of Meteorology, Director Earth System 
Science Center, The Pennsylvania State University; and Dr. 
Judith Curry, President, Climate Forecast Applications Network.
    Please stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Rouda. Please be seated.
    Let the record show that the witnesses answered in the 
affirmative.
    The microphones are sensitive, so please speak directly 
into them. Without objection, your written statement will be 
made a part of the record.
    With that, Mr. Witt, you are now recognized to give an oral 
presentation of your testimony for five minutes.

  STATEMENT OF JAMES WITT, FORMER DIRECTOR, FEDERAL EMERGENCY 
                       MANAGEMENT AGENCY

    Mr. Witt. Thank you, Mr. Chairman, and Ranking Member 
Comer, thank you and the members of the committee. It is my 
privilege to appear before the committee today to talk about 
issues that are very important to our citizens and our 
communities. These issues involve how we work together to 
mitigate, prepare, respond, and recover from disasters. I have 
dedicated my professional and personal career working with 
communities on these issues. I had the privilege of serving as 
Director of FEMA from 1993 to 2001. President Clinton 
recognized that in the aftermath of a disaster, it was 
important that our citizens could count on the government to be 
there and help them when they needed it the most.
    I came to FEMA during a time when this philosophy was not 
often followed. I was tasked to rebuild an agency that several 
Members of Congress called for abolishing after mismanagement 
and poor response performance in disasters like Hurricane 
Andrew and Iniki.
    With strong support from Congress and the administration, 
we proceeded to reform and rebuild FEMA. We were immediately 
tested with the devastating Midwest floods of 1993. This 
flooding impacted nine states. We streamlined our operations. 
We responded well, but we want to engage individuals in a 
program that would prevent the economic and social dislocation 
caused by the flooding from ever happening again. With the 
support of Congress, we engaged local citizens in a voluntary 
program to buy out their homes in the floodplain. In Missouri 
alone, we bought out over 4,000 homes and one whole town. This 
town has flooded 41 times in its history. There were 18 
businesses and 42 residences. And they all agreed to relocate 
on a hill. The only one that did not agree to relocate was the 
mayor. Throughout my time at FEMA, mitigation became the high 
priority. The idea was to prevent people and communities from 
becoming victims of disasters.
    We initiated the program in 1997 called Project Impact: 
Building Disaster Resistant Communities. The program provided 
seed money to communities if they would take four simple steps: 
form a committee of all community-wide partners; identify their 
hazards; prioritize a plan to address each hazards; and 
communicate their actions to reduce the hazards. We started out 
with seven communities, and by 2000, we had 250 communities in 
this program. Congress gave me $25 million for this program. We 
had communities wanting to join this program. They did not want 
any seed money. They wanted us to help them build the public-
private partnership to eliminate their risk.
    The last summit we had in Washington for this program was 
in 2000, and there were 2,500 local officials and volunteers 
and partners that attended the summit. We had over 1,000 
corporate and business partners participating like NASCAR, Home 
Depot, and many others. It was a very successful program. And 
one of the key supporters of this program was the private 
sector, and the financial support of mitigation projects was a 
major success.
    And let me just say this in closing. When I was Director of 
FEMA working with all the state directors and we had 340 
Presidential disaster declarations the eight years I was there, 
93 floods, 94 earthquakes in California North Ridge, the 1995 
bombing of the Murrah Building in Oklahoma City, plus numerous 
hurricanes and tornadoes in between.
    And one of the keys that helped states move much faster in 
local communities was I put in a policy working with each of 
the state directors of emergency management where they would do 
their damage estimates and get them to us as quick as they 
possibly could with the request for a Presidential disaster 
declaration. We would advance them 50 percent of that estimate 
up front so they could get the debris removed, get contracts in 
place, and get to move because they are going to be audited 
anyway. And then we would go back in and work with them on 
damage assessments to see if it totaled to the amount that they 
gave us. It made a big difference in the recovery efforts. They 
could recover much faster and much easier.
    One of the things that I think you could consider looking 
at because FEMA has a short-term housing program. HUD has the 
CDBG for the longer term. Look at how you could combine the 
CDBG program under FEMA--combine it with the short-term and 
long-term housing. I think that might help.
    One of the things I would highly recommend, in closing, I 
that FEMA be brought out of Homeland Security as an independent 
agency again. There is too much red tape, too much bureaucracy, 
and it does slow down the process.
    So thank you, Mr. Chairman and members of the committee.
    Mr. Rouda. Thank you, Mr. Witt.
    And I would now like to recognize Mr. Currie for five 
minutes of oral testimony.

     STATEMENT OF CHRISTOPHER CURRIE, DIRECTOR, EMERGENCY 
  MANAGEMENT, DISASTER RECOVERY AND DHS MANAGEMENT ISSUES, ON 
        BEHALF OF U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Currie. Thank you, Mr. Chairman, Mr. Ranking Member. It 
is an honor to be here today to talk about GAO's past work on 
disaster preparedness, response, and recovery.
    Since Katrina, we have done work in almost every area of 
FEMA's operations, and we have found that there has been major 
progress in a number of areas, but there continue to be some 
major challenges too. And unfortunately, the challenges and the 
risks we face as a country moving ahead are not going to make 
those challenges any easier. They are going to make them 
harder.
    Two-thousand-seventeen was a historic year--that has been 
said many times--in terms of cost and impact. But I think it 
would be a mistake to look at that as a one-time event. Five-
hundred-year floods seem to be happening every year. Wildfire 
seasons are getting longer. And frankly, our infrastructure is 
more expensive to repair. All of these things are leading to 
additional disaster costs.
    Also, as state and local capabilities are overwhelmed by 
these events, the expectation for Federal assistance is only 
going up. Since 2005, we have found that the Federal Government 
has spent almost $450 billion--that is approaching half a 
trillion dollars--on disaster response and recovery, and that 
is just not a sustainable path moving forward in the future, 
given our budget situation.
    I would like to dive into some areas specifically on 
response. Our work on the 2017 disasters was a mixed story. In 
Texas, Florida, and California, what we saw was that years of 
reforms after Katrina, a lot of preparedness efforts and great 
coordination led to the ability to handle and deal with some 
very big challenges that happened with Harvey and Irma and the 
California wildfires. We were able to evacuate numerous victims 
out of wildfire zones, flood victims in Hurricane Harvey, and 
also restore power to 6 million people in Florida relatively 
quickly. That is the good news.
    The bad news is in the territories and Puerto Rico and the 
Virgin Islands, we struggled. Frankly, FEMA struggled and the 
territories were overwhelmed and struggled themselves too. I 
want to be clear that FEMA has provided extensive levels of 
support in both places. They provided more dollars in Puerto 
Rico and the Virgin Islands together than all those other 
states I mentioned combined. But that just shows the size of 
the problem and the challenge that existed there.
    So the other issue is the Federal work force that FEMA has 
had, longstanding challenges we have been pointing out for 
years on the inability to fully train the work force and retain 
the number of people we need to handle a situation. And 2017 
really exposed some of those gaps. A number of our 
recommendations in that area continue to be open and are just 
as valid today as when we made them over five years ago.
    I would also like to talk about recovery, which is where we 
are right now with the 2017 disasters. Anybody on this 
committee that has had a Federal disaster in their jurisdiction 
understands that these Federal recovery programs can be very 
complicated, time consuming, and frankly, very frustrating. We 
hear it all the time in our travels around to disaster 
locations and in talking to state and locals.
    Just two weeks ago, we found in a report that FEMA could do 
a better job of helping elderly individuals and those with 
disabilities to more easily enroll in their programs.
    And we continue to see problems and challenges with FEMA's 
public assistance grants. This is the largest pot of money that 
goes to rebuilding. It is one of the most complicated grant 
programs in government. It takes a long time for the money to 
get spent, and there is a lot of back and forth. So the lack of 
policies and procedures are confusing state and local officials 
and frankly delaying long-term public infrastructure projects 
from being implemented. And I think this slowness is a 
frustration for both FEMA and the states and locals too.
    The last piece I would like to end with is talking about 
what do we do moving forward with these major challenges. We 
and many others have talked about the importance of building 
disaster resilience. If we are going to spend this kind of 
money, how do we spend it in a way that we are not going to 
have to spend it again later rebuilding the same 
infrastructure, the same houses? But it has been a challenge. 
The Federal Government spends most of its disaster resilience 
dollars after a disaster, which means it goes only to locations 
impacted by that disaster and essentially means that mother 
nature dictates where we spend our resilience dollars. I think 
we need to change that.
    There has been some progress in that area. The recently 
passed DRRA last year provided FEMA with an additional pot of 
money to allocate before a disaster hits so we can be more 
strategic about where we spend that money. Also, FEMA is 
starting to work on better plans to be able to invest those 
resilience dollars before the disaster hits so we know what to 
do and we are not just surprised after it hits.
    So this completes my prepared remarks. I look forward to 
the questions.
    Mr. Rouda. Thank you, Mr. Currie.
    Just a point of clarification. You said $450 billion I 
think. What was that timeframe?
    Mr. Currie. Since 2005.
    Mr. Rouda. Since 2005. And is that FEMA outlays only, or is 
that all costs associated with natural disasters in the U.S. 
during that timeframe?
    Mr. Currie. That is Federal disaster recovery and response 
costs.
    Mr. Rouda. Okay. So no private insurance is involved----
    Mr. Currie. Exactly, right.
    Mr. Rouda [continuing]. in that number whatsoever, as well 
as other infrastructure costs from local and state 
municipalities.
    Thank you very much.
    I now recognize Dr. Mann for five minutes of oral 
testimony.

   STATEMENT OF DR. MICHAEL MANN, DISTINGUISHED PROFESSOR OF 
 METEOROLOGY, DIRECTOR, EARTH SYSTEM SCIENCE CENTER, ON BEHALF 
              OF THE PENNSYLVANIA STATE UNIVERSITY

    Dr. Mann. Thank you, Mr. Chairman and members of the 
committee. My name is Michael Mann. I am Distinguished 
Professor of Atmospheric Science at Penn State University and 
Director of the Penn State Earth System Science Center. And I 
do have to say I feel a little bit today like I am at the 
center of curry sandwich.
    [Laughter.]
    Dr. Mann. Sorry.
    The primary focus of my research is understanding earth's 
climate system. I am a fellow of numerous scientific societies. 
I was awarded the Hans Oeschger Medal of the European 
Geophysical Union in 2012, the Friend of the Planet Award from 
the National Center for Science Education in 2014, Stephen 
Schneider Award for Outstanding Climate Science Communication 
in 2017, Award for Public Engagement with Science from the 
American Association for the Advancement of Science in 2018, 
Climate Communication Prize from the American Geophysical Union 
in 2018. And this year, I received the Tyler Prize for 
Environmental Achievement. I have authored more than 200 
publications and four books. I am perhaps best known for my 
paleoclimate research two decades ago that produced the iconic 
or now iconic hockey stick curve, demonstrating the 
unprecedented nature of recent warming.
    My research in recent years, however, has focused on 
extreme weather events. I would like to talk about the 
substantial progress that has been made in this area in recent 
years, and I would also like to emphasize we are using the term 
``natural disasters,'' but in many cases there is absolutely 
nothing natural about the disasters we are talking about. We 
are not saying they have been caused by climate change. We are 
saying that climate change has worsened them. That is what the 
research says.
    There is an emerging consensus, for example, now that we 
will see stronger and wetter hurricanes, and we are seeing them 
already. Hurricanes get their energy from warm ocean waters, 
and the oceans are warming from the buildup of greenhouse gases 
in the atmosphere from the burning of fossil fuels. The 
strongest hurricanes have gotten stronger. Over the past few 
years, we have witnessed the most intense hurricanes on record 
for the globe, both hemispheres, the Pacific, and as of the 
summer of 2017 with Hurricane Irma, the open Atlantic with 
Maria, a similarly strong and devastating storm coming just 
weeks later.
    With the recent post-season upgrade and status, Michael, my 
namesake, is now established as the land-falling category 5 
hurricane in U.S. history, having devastated parts of Florida, 
the Florida panhandle, when it made landfall last October. 
Warmer air holds more moisture. The amount of water vapor in 
the atmosphere has increased due to human-induced warming. That 
extra moisture leads to heavier rainfall. We know that rainfall 
rates and hurricanes are expected to increase in a warmer 
world, and we are living that reality now.
    Sea level is rising because ocean water expands as it 
warms. Ice sheets melt as it warms. Sea level rise is 
accelerating, and storm surge from hurricanes now rides on top 
of higher seas to infiltrate further into our coastal cities.
    Our own work has shown, for example, that the combined 
effect of global sea level rise and intensifying hurricanes has 
taken Superstorm Sandy--a Sandy-like storm surge from what 
would have been a 500-year event before we caused warming of 
the planet to a 25-year event. And if we continue with business 
as usual, burning of fossil fuels, by the middle of this 
century, it will become a five-year event. That means a Sandy-
like storm surge on average once every five years.
    Heavier rain and higher sea levels combine to cause 
compound flooding in major hurricanes. We saw this effect in 
play in the catastrophic flooding in 2017 with Harvey and in 
2018 with Florence. Summer 2018 saw an unprecedented spate of 
extreme floods, droughts, heat waves, and wildfires break out 
across North America, Europe, and Asia. A warmer ocean 
evaporates more moisture to the atmosphere, so you get worse 
flooding from coastal storms. Think again Hurricanes Harvey and 
Florence. Warmer soils evaporate more moisture into the 
atmosphere, so you get worse droughts.
    Global warming shifts the extreme tail of the bell curve, 
so you get more temperature extremes, more frequent and intense 
heat waves. Think summer 2018 all around the northern 
hemisphere.
    You combine heat and drought, it is not rocket science. You 
get worse wildfires, and think about what we are seeing in the 
western U.S.
    Running climate models both with and without human impacts, 
we can investigate whether a particular event was likely to 
have been made more common, more frequent because of human-
caused warming. And in that sense, we are able to attribute 
certain events to the extreme nature of these events to climate 
change. The scorching European heat wave last summer, according 
to one such attribution study, was made more than twice as 
likely because of human-caused warming. The record rainfall in 
North Carolina with Florence, according to another study, was 
increased by as much as 50 percent by human-caused warming.
    Some of the impacts of climate change on extreme weather 
events, on the other hand, are too subtle to be captured by 
current generation climate models. In a study my co-authors and 
I published in the ``Journal of Science Advances'' recently, we 
identified a key factor behind the rise in extreme summer 
weather events, like the ones that played out in summer 2018. 
And it is not captured by current generation climate models. We 
showed that climate change is causing the meanders in the 
summer jet stream to become more pronounced, and they are 
tending to remain locked in place for longer stretches of time. 
Under these circumstances when, for example, a deep high 
pressure ridge, as we call it, is stuck in the western U.S., 
you get that extreme heat and drought and wildfires, while 
downstream you get a trough, what we call a trough, a low 
pressure center associated with the unprecedented rainfall that 
we saw over large parts of the eastern U.S. last year. We are 
seeing something very similar now happening right now this 
summer.
    Well, climate change contrarians love to point to 
scientific uncertainty for justification for inaction on 
climate, but uncertainty is a reason for even more concerted 
action. We already know that the projections have historically 
underestimated the rate of ice sheet melting and the rate of 
sea level rise. And now it appears they are underestimating the 
increases in extreme weather associated with climate change 
because of processes that are not well captured in the climate 
models. Uncertainty is not our friend here.
    The consequences of doing nothing grow by the day. The time 
to act is now.
    Climate change is pain. Anyone who tells you differently is 
selling something, most likely fossil fuels.
    Mr. Rouda. Dr. Mann, I need you to conclude your comments.
    Dr. Mann. Absolutely. There we are.
    Mr. Rouda. Excellent timing. And good luck with your new 
business venture of curry sandwiches, the next fast food trend.
    Dr. Mann. I have two partners.
    Mr. Rouda. With that, I now recognize Dr. Curry for five 
minutes for oral testimony.

  STATEMENT OF DR. JUDITH CURRY, PRESIDENT, CLIMATE FORECAST 
                      APPLICATIONS NETWORK

    Dr. Curry. I thank the chairman, ranking member, and the 
subcommittee for the opportunity to testify today.
    I have devoted 4 decades to conducting research related to 
extreme weather events and climate change. As President of 
Climate Forecast Applications Network, I have been helping 
decisionmakers use weather and climate information to reduce 
their vulnerability to weather disasters.
    The paradox of weather disasters is that they are at the 
same highly surprising, as well as quite predictable. We should 
not be surprised by extreme weather events when comparable 
events have occurred during the past century. The sense that 
extreme weather events are now more frequent or intense because 
of manmade global warming is symptomatic of weather amnesia.
    The devastating impacts in 2017 from Hurricanes Harvey, 
Irma, and Maria invoked numerous alarming statements about 
hurricanes and global warming. However, it is rarely mentioned 
that 2017 broke an 11-year drought in U.S. major hurricane 
landfalls. This major hurricane drought was unprecedented in 
the U.S.'s historical record.
    Of the 13 strongest U.S. land-falling hurricanes in the 
historical record, only three have occurred since 1970, Andrew, 
Michael, and Charlie. Four of these strongest hurricanes 
occurred in the single decade following 1926.
    Recent international and national assessment reports 
acknowledge that there is not yet evidence of changes in the 
frequency or intensity of hurricanes, droughts, floods, or 
wildfires that can be attributed to manmade global warming. My 
written testimony cites chapter and verse from these reports 
regarding those specific conclusions.
    The elevated wildfires in the western U.S. since the 1980's 
is partly caused by state and Federal policies that have 
resulted in catastrophically overgrown forests. Comparable 
levels of wildfire activity were observed earlier in the 20th 
century.
    The U.S. National Climate Assessment Report recognized that 
the Dust Bowl era of the 1930's remains the benchmark period 
for extreme drought and heat in the U.S. historical record.
    A few comments regarding projections of future extreme 
weather.
    My company provides seasonal forecasts of extreme weather. 
For the 2019 hurricane and wildfire seasons, we expect an 
active hurricane season with substantial landfall risk, whereas 
we expect the western wildfire season to be relatively quiet. 
Up to at least 2050, natural climate variability is expected to 
dominate future hurricane variations rather than any warming 
trend. The most important looming factor is an anticipated 
shift to the cold phase of the Atlantic Multidecadal 
Oscillation. This shift is expected to overall reduce hurricane 
and wildfire risk for a period of several decades.
    With regard to projections to 2100, models from the NOAA 
laboratory in Princeton show a substantial decrease in the 
number of hurricanes in response to global warming. Their 
models show an increase of about 5 percent in the maximum 
intensity of Atlantic hurricanes. Owing to the large natural 
variability of Atlantic hurricanes, any influence of manmade 
global warming would not be noticeable for a number of decades.
    Blaming extreme weather events on manmade climate change 
and focusing only on what to do after lives and property have 
been destroyed deflects from understanding and addressing the 
real sources of the problems, which in part includes Federal 
policies. Possible scenarios of incremental worsening of 
weather and climate extremes do not change the fundamental fact 
that many regions of the U.S. are not well adapted to the 
current climate regime. We have an opportunity to be proactive 
in preparing for weather disasters. Rather than focusing on 
recovering from extreme events, we can aim to reduce future 
vulnerability by evolving our infrastructures, policies, and 
practices. Adaptation strategies that promote probability 
protect against extreme weather events while at the same time 
providing other benefits to human or natural systems.
    Apart from addressing infrastructure issues, improvements 
to Federal and state policies can substantially reduce the 
damage from wildfires and land-falling hurricanes.
    Further, tactical adaptation practices incorporating 
tailored weather forecast products can help mitigate the 
damages associated with extreme weather events.
    Places that find solutions to their current challenges 
associated with weather disasters will be well prepared to cope 
with any additional incremental stresses from future climate 
change.
    This concludes my testimony.
    Mr. Rouda. Thank you, Dr. Curry.
    At this time, the chair recognizes the Congresswoman from 
California, Katie Hill for five minutes.
    Ms. Hill. Thank you so much, Mr. Chairman.
    And thank you all for being here today.
    In 2017 and 2018, California experienced the two deadliest 
wildfires in the state's history, and as the chairman 
mentioned, one of them was right in my district and in my back 
yard.
    Due to climate change, these wildfires in the American West 
will burn longer and stronger as time goes on. Dan Costa, the 
former Director of the Air, Climate, and Energy Research 
Program at EPA has said--and I quote--there are no longer 
wildfire seasons. There are just wildfires all the time. And we 
see that at home every day.
    And this reality brings with it unprecedented challenges 
for Federal disaster response.
    So my question is, Mr. Currie, what challenges has FEMA 
faced that are unique to wildfire response as opposed to, say, 
hurricane response.
    Mr. Currie. A great question. I think one of the things 
that has happened over the last five years, we have seen more 
actual Federal declared disasters for wildfires than we have 
seen in the many years prior to that. And so that just opens up 
a whole other level of programs and resources that FEMA brings 
to bear.
    A great example is housing. FEMA is responsible in a 
federally declared disaster for providing short-term housing 
for survivors. In California, we had problems that we have not 
faced in other parts of the country. The traditional housing 
options like trailers, short-term rentals, even hotels were 
just not an option because they do not exist. You cannot put 
them in those locations, or frankly, rental properties are 
extremely expensive. So the wildfire issue, particularly in 
California, is forcing FEMA and the rest of the Federal 
Government to rethink how it does post-disaster housing. That 
is just one example.
    Ms. Hill. Thank you.
    And then I guess, Mr. Witt, just to sort of followup on 
that, during your tenure as FEMA administrator, what role did 
the agency play in wildfire response, and what percentage of 
your resources would you say you spent on wildfire response? I 
am looking for kind of a comparison over time.
    Mr. Witt. One of the things that we tried to do--I do not 
know how successful it was, but we started trying to implement 
a dead fuel brush removal program, which would eliminate the 
intensity of a fire. But most of the land out there is U.S. 
Government land with the exception around some homes.
    One home in the Laguna Beach fire that Governor Wilson at 
that time and I was at was up on top of a mountain, and he had 
put clay tile roofs on. He extended the eve of the house over 
four feet out. He put fire-resistant siding on, and he planted 
fire-resistant shrubs with the rock and the gravel and stuff 
around his house. His house was the only house that survived 
that wildfire.
    So there is ways we can mitigate it. There is ways that we 
can keep people from becoming victims. In one of the cities out 
there, Oakland, I was at with Mayor Brown at the time, there 
was a wildfire there that had burnt 300 homes, and this 
community came together and built back. And everything in that 
community was built fire-resistant, even less grass, more rock, 
more fire-retardant shrubbery. And they had a box at the corner 
of every block. And they did it right.
    Ms. Hill. Thank you. I just do not have a whole lot of time 
left.
    But, Mr. Currie, FEMA has issued an after-action report 
regarding the agency's preparations in response to the 2017 
hurricane season. Are you aware of a similar report being done 
by FEMA regarding the agency's preparations in response to the 
California wildfires in 2017 and 2018?
    Mr. Currie. Yes, ma'am, I am. I believe it was actually 
issued just last week or finalized last week.
    Ms. Hill. Great. So we can expect to be seeing it soon.
    Mr. Currie. Well, you have to ask FEMA for that, but yes.
    Ms. Hill. But you believe it is important for that report 
to be released.
    Mr. Currie. Absolutely because the after actions are going 
to be very, very different from the after actions from water-
related events and hurricanes.
    Ms. Hill. Of course. I want to make sure that we see that, 
and I do know that the GAO is also examining issues related to 
FEMA's response.
    Mr. Currie, GAO is conducting a review of FEMA's response 
to six wildfires between 2015 and 2018. At the current moment, 
how would you assess FEMA's state of preparedness for the 2019 
wildfire season?
    Mr. Currie. Well, let me just say I think from a response 
perspective--and we have talked to--I know they are sitting 
behind me--the state of California about this and several 
counties in the fire-affected regions. You know, we hear great 
things about FEMA's coordination and preparations and response. 
The state and local officials tell us that FEMA is there. They 
give them all the support and the help they need.
    I think the challenge area that we see is really when you 
get into recovery. For example, I mentioned the housing issue 
earlier. Debris removal has been a massive challenge with fire 
because unlike on the east coast with hurricanes, you cannot 
just move the house and start rebuilding right away. You have 
to excavate. It is toxic soil after a fire. So the debris 
removal challenge was a huge problem. So I think they are still 
working through a lot of these recovery challenges.
    Ms. Hill. I am all too aware of the housing crisis in 
California on so many fronts.
    But anyway, thank you all so much for your time.
    And I yield back.
    Mr. Rouda. Thank you.
    I now recognize Representative Comer for five minutes of 
questioning.
    Mr. Comer. Thank you, Mr. Chairman.
    My questions will be directed to Dr. Curry. Dr. Curry, the 
majority released a memorandum explaining the purpose of this 
hearing, and it states the following. I want to read this to 
you. Quote: due to climate change, the number of hurricanes 
that reach categories 4 and 5 in strength has roughly doubled 
since the 1970's. And, quote, there are no longer distinct 
wildfire seasons. There are just wildfires all the time. End 
quote.
    Do you agree with the claims stated in the majority memo, 
and do you think the existing scientific evidence supports 
those claims?
    Dr. Curry. With regard to the doubling of the number of 
category 4 and 5 hurricanes, I was actually a co-author on that 
paper in 2005 by Webster, et al. Since that time, serious 
issues have been raised regarding the quality of the data in 
the earlier part of the record, particularly prior to 1988. So 
most scientists are disregarding that earlier data.
    The big jump really occurred between the 1970's and 1990's. 
So if you throw out the earlier data, you no longer have much 
of a jump.
    A recent article by Klotzbach and Landsea dated that with 
more 10 more years of data, and they found a very small 
increase in the percent of category 4 and 5. If you add 2015 
and 2016, which their study did not include, the numbers bump 
up because of a very big El Nino year really juices the Pacific 
hurricanes, which are more than half.
    So basically in understanding this we are hampered by not 
having a long enough data record to really interpret what is 
going on.
    Mr. Comer. Dr. Curry, what do recent international and 
national climate assessment reports have to say about the links 
between manmade climate change and wildfires, hurricanes, 
floods, and droughts?
    Dr. Curry. Well, I cited this in my written testimony. 
Specifically with regard to the U.S., the National Climate 
Assessment based on the historical record did not find links 
between flooding, heat waves, hurricanes, wildfires, and so on 
basically by virtue of there being periods earlier in the 20th 
century with at least as bad statistics, in some cases much 
worse, like the 1930's for heat waves and droughts.
    Mr. Comer. You have used the term ``weather amnesia'' as a 
way of describing the current public statements among some 
scientists and politicians that extreme weather events are now 
more frequent or intense and attributable to manmade global 
warming. Can you discuss what you mean when you use the phrase 
``weather amnesia''?
    Dr. Curry. Well, people forget, and it does not even take 
long for them to forget. We had a bad tornado spring this year, 
a lot of tornadoes, but nothing particularly unusual with 
regards to previous years. And between 2012 and 2018, the 
tornadoes were way below average. Then all of a sudden, we get 
one bad year and it is global warming. The 1980's and--the 
1970's and 1980's was a very benign period for bad weather. But 
you do not have to go back too far to get some seriously bad 
stuff in the 1950's and the 1930's and so forth.
    Mr. Comer. My last question on this series. I wanted to 
mention the California wildfires. I own a lot of forestland in 
Kentucky. It is private land. We manage our forestland. We do 
not have forest fires out there. I say that, and I will get a 
call saying I have got a fire on some of my land right now.
    Many people have suggested that a big part of the problem 
in California wildfires is the lack of forest management, the 
fact that there is so much debris underneath the trees that 
fuels the intensity of the fire. Mr. Currie made the statement 
that most of that land is Federal land. So there are a lot of 
rules and regulations that prevent forest management.
    I just wanted to know your thoughts on that.
    Dr. Curry. Well, I have heard--one of my clients, who is an 
emergency manager for a regional power provider, went out to 
California to consult with Pacific Gas and Electric after all 
that. And he said the whole state is a tinderbox. I mean, you 
cannot remove any--even if a tree falls over and dies, you 
cannot remove it. So all of that fuel builds up, and of course, 
it is going to blow. Okay. So there must be some regulations 
that can be changed so all that can be cleared out.
    When I announced that I was testifying in this hearing, I 
got emails from several firefighters in California who emailed 
me and said tell them it is not climate change. It is these 
crazy regulations allowing people to build houses where they 
should not, allowing all this wood to buildup. We need to do 
something. I mean, blaming this on climate change is just sort 
of wasting everybody's time in trying to deal with this.
    Mr. Comer. Thank you.
    Mr. Rouda. Thank you.
    I now recognize Congresswoman Tlaib for five minutes of 
questioning.
    Ms. Tlaib. Thank you, Mr. Chairman.
    Thank you, the panelists, for being here.
    In March 2018, under the leadership of former FEMA 
Administrator Long, FEMA eliminated all references to climate 
change from its four-year strategic plan.
    Back in Michigan's 13th congressional district that I 
proudly represent, we know climate change is happening. We see 
it all the time. We have had one of the wettest years on record 
with widespread flooding across my district, which has, 
recently this year, forced the Governor to declare a state of 
emergency.
    So just to make sure--this is a question for all of you all 
on the panel--is there anyone on this panel who believes 
climate change is not currently happening?
    [No response.]
    Ms. Tlaib. Okay. That is wonderful. Everyone on this panel 
believes climate change is occurring, and yet FEMA removed all 
references to it in its plan for the next four years. The 
decision concerns me greatly. An agency tasked with responding 
to natural weather-related disasters cannot remove all 
references to changes in climate and expect for you all to do 
your job or for the Department to do their job. FEMA pretending 
climate change does not exist is not an action plan.
    So, Mr. Witt, as a former Director of FEMA, and Dr. Mann, 
as a climate scientist, does it concern you that FEMA removed 
climate change from its strategic plan? And is it important for 
FEMA to commit to incorporating climate change in their long-
term planning?
    Mr. Witt. I think climate change is a big part of what we 
are seeing today. Last month, the month of May, we had 500 
tornadoes. A year ago May, there was 240. We just had a 
historic river flood on the Arkansas River. It was the biggest 
flood since 1945, 16 to 18 feet higher than it crested in 1945. 
We see at my farm we got 6 inches of rain in two hours, which 
has never happened. We have seen 10 to 20 inches of rain in 
Iowa and Oklahoma and in the Midwest. And it is causing an 
extreme amount of flooding. So we are facing the sea level 
rising, everything from California to the east coast. That is 
part of climate change. Our ocean is warming. We are having 
more hurricanes because the ocean is warming and they are much 
stronger and much more devastating.
    So, yes, I believe it is happening.
    Ms. Tlaib. Do you think this affected FEMA's effectiveness 
in responding to natural disasters when they chose not to 
consider climate change when developing a strategic plan?
    Mr. Witt. I do not think it affected their response to 
disasters. I think it affects them in the way of the long-term 
planning and how to mitigate it for the future. So that has to 
be a qualifier.
    Ms. Tlaib. And, Dr. Mann?
    Dr. Mann. Yes. I wanted to correct a number of fallacies 
that we have heard today when it comes to the connection 
between climate change and extreme weather events.
    First of all, you sometimes hear this myth about there 
having been a supposed hurricane drought, and there is some 
sleight of hand going on there because what is going on--
Superstorm Sandy was a strong category 3 and then weakened to a 
category 2 hurricane off the U.S. east coast. Now, it did go, 
as they say, extra-tropical. It technically was no longer a 
hurricane when it made landfall, but it was spinning off the 
east coast for several days as a strong hurricane building up a 
very large storm surge. And as we know, it was the storm surge 
that was so devastating to the Jersey coast and to New York 
City. So it is extremely misleading when you hear statements 
like that.
    And, of course, Michael, my namesake, is one of a very 
small number of land-falling category 5 hurricanes. It is the 
latest--the latest in the season we have ever seen that. So 
there is a clear climate change----
    Ms. Tlaib. Absolutely. And thank you, Dr. Mann. I will tell 
you misleading comments seem to be a norm here, and I am making 
sure that I do not allow anybody to think it is normal to 
mislead. It is the same thing as lying.
    On June 14, 2019, emails obtained by the Environmental 
Defense Fund clearly show the culture of climate denial in the 
Trump White House. William Happer, a member of the President's 
National Security Council and the chair of the reported White 
House Panel, convened solely to question the scientific 
evidence on climate change, sent emails to the Heartland 
Institute, a climate change denying interest group, that he 
wanted to figure out a way to make his ideas, quote, more 
useful to a wider readership.
    Mr. Happer also emailed NASA Administrator Jim Bridenstine 
to say that NASA should, quote, systematically sidestep the 
science on global warming.
    So, Mr. Chairman, if I may, I would like to enter these 
emails into the record.
    Mr. Rouda. So moved. Without objection.
    Ms. Tlaib. I wish this was not shocking, but unfortunately, 
this is part of the course of this administration and the White 
House and the fossil fuel dark money groups conspiring to deny 
reality and build a misinformation campaign designed to 
threaten the future of our children.
    And so with that, I yield the rest of my time and thank 
again all of you for your important conversation on this.
    Mr. Rouda. Thank you.
    The chair now recognizes Congressman Higgins for five 
minutes of oral questioning.
    Mr. Higgins. Thank you, Mr. Chairman.
    Mr. Currie, you mentioned in your opening statement--you 
referred to disaster resilience and pre-mitigation investment. 
And, Mr. Witt, you strike me as a gentleman of great common 
sense and background.
    I ask you each. Is it a wise investment of the people's 
treasure as we look forward regarding response to disasters, 
that as a nation we invest in pre-mitigation strategy and 
disaster resilience as opposed to a proactive response and a 
post-disaster response? Generally speaking, would it be a wise 
investment of the people's treasure for us to shift the 
strategy? Yes or no, you two gentlemen?
    Mr. Currie. I can start. I think all of them are important, 
but I think what we have found--and I know it is something you 
understand living in Louisiana--that we are already spending 
the money as a Federal Government after the disaster strikes.
    Mr. Higgins. And again, I thank you and I have limited 
time. But just, generally, do you agree that as a Congress, we 
control the people's treasure? We control the purse. Should we 
place a greater emphasis on pre-mitigation disaster resiliency 
preparedness?
    Mr. Witt?
    Mr. Witt. Yes, sir.
    Mr. Higgins. Thank you very much.
    Dr. Curry, you had explained your position on forest 
management. Many of us agree. Essentially we have allowed fuel 
to accumulate at the base or our forests, especially on Federal 
lands. And we are seeing tremendous forest fires as a result.
    The reference reminds me of after Hurricane Harvey, I 
deployed with civilians into Texas in rescue operations. And 
the last gentleman that we rescued was on a Thursday night that 
I was able to participate in--I had to return to Louisiana. It 
was about 2 o'clock in the morning. We rescued an elderly 
gentleman. And when he found out that I was a Congressman, 
because I certainly did not look like one and needed to shower, 
he came to me and wept. He said, Congressman, I have lived in 
my home since 1968. He said we have never flooded. He said I 
have seen this much water fall, but I have never seen this much 
water rise.
    And this made it crystal clear to me that as a Nation, at 
the local, state, and Federal level, we have failed to maintain 
our water management systems. My office has since placed a 
great emphasis on this successfully. God is not dropping more 
water on us it seems to me, but we as a nation have failed to 
maintain our systems.
    In forest management, it is a similar story. You have homes 
burning not because lightning is striking more often or because 
people are more careless with fire. It is because we have 
allowed this fuel to accumulate, and we should respond to that 
as a nation with common sense.
    Regarding the occurrence of natural disasters as is perhaps 
related to climate change, on a geological timescale I ask any 
of you, referring to my colleague's question, has there ever 
been a time in earth's history according to earth science--yes 
or no. According to the geological record and earth science, 
has there ever been a time in earth's history when the earth 
was not experiencing climate change? Is anyone going to say no 
to that?
    [No response.]
    Mr. Higgins. I will take that as a yes.
    So there is certainly sufficient record to show that the 
window where we are looking at here--call it 100, 150 years--is 
very narrow. Regarding communications and awareness, right now, 
we all have instant communications worldwide. One-hundred-fifty 
years ago, how would an American in California know that 
Louisiana had experienced a hurricane? Or how would an American 
in New York 150 years ago know that Americans in California had 
experienced wildfires? There is a great deal of time difference 
regarding the acknowledgement of these events.
    So as a Congress, it is our job to respectfully listen to 
the wisdoms that are presented to us from both sides of this 
argument. And I suspect that the truth lies somewhere within 
the middle.
    Dr. Mann. Could I answer your question?
    Mr. Higgins. Which question, sir?
    Dr. Mann. You just asked about how we know about the past 
history of hurricanes and wildfires.
    Mr. Higgins. No, I did not ask that.
    Dr. Mann. You certainly implied that.
    Mr. Higgins. It is my time and I reclaim it.
    Dr. Mann. Thank you.
    Mr. Higgins. So I would just say, Mr. Chairman, thank you 
for holding this hearing and let us move forward with sober 
minds as we invest the people's treasure and respond. Thank 
you, sir.
    Mr. Rouda. Thank you.
    I now recognize Congresswoman Ocasio-Cortez.
    Ms. Ocasio-Cortez. Thank you.
    Dr. Mann, I will let you respond.
    Dr. Mann. Thank you very much.
    With regard to hurricanes, I actually co-authored an 
article in the journal ``Nature'' about 10 years ago where we 
used geological information from what are known as sedimentary 
deposits, overwash deposits left behind by ancient hurricanes. 
So we can actually reconstruct the history of land-falling 
hurricanes along the U.S. east coast, along the Caribbean. And 
so we have this rich archive of information that tells us that 
in fact the increase in intensity that we are seeing today does 
appear to be without precedent as far back as we can go.
    With regard to wildfires, a group of tree ring specialists 
a few years ago reconstructed the history of wildfire as well 
as drought in California. And their finding is that both the 
increase in wildfire and the drought, the epic drought that we 
saw in California over the last decade, are without precedent 
as far back as those records go, more than 1,000 years.
    Let me also, if I may, comment on this claim that----
    Mr. Higgins. If the gentleman will yield, Mr. Chairman. 
Since Dr. Mann is responding to a question I did not ask----
    Ms. Ocasio-Cortez. Sorry. I reclaim my time. It is my time. 
Thank you. I reclaim my time.
    Mr. Higgins. I ask the gentlelady to----
    Mr. Rouda. The chair recognizes Ms. Ocasio-Cortez.
    Mr. Higgins. I did not ask that question.
    Ms. Ocasio-Cortez. Thank you. And, Mr. Chair, I would like 
to----
    Mr. Higgins. Dr. Curry should be allowed to respond.
    Mr. Rouda. The chair recognizes Congresswoman Ocasio-
Cortez.
    Ms. Ocasio-Cortez. Thank you.
    Mr. Rouda. This is her time, and her time will be restored 
due to the interruption.
    Ms. Ocasio-Cortez. Thank you so much, Mr. Chair. I 
appreciate it despite the attempts to take my time away where 
there is no statute in the rules where that is appropriate or 
acceptable.
    Mr. Higgins. I believe that did not happen.
    Ms. Ocasio-Cortez. I will move on.
    So the Puerto Rican island of Vieques is located nearly 
eight miles from mainland Puerto Rico. In the aftermath of 
Hurricane Maria, my grandfather died. And the island of Vieques 
is where 9,000 American citizens live. These Americans are 
still suffering today almost two years after Hurricane Maria 
devastated the island.
    On November 29th, 2017, more than two months after 
Hurricane Maria, an individual whose name has been redacted 
emailed Michael Byrne, FEMA's lead official in Puerto Rico. 
This person wrote--and I quote--we have limited to no 
communications. Without the grid, no cell tower or land line is 
available. Internet service needs power, and like it or not, 
this is the means of global communication. Our water system is 
currently run on emergency generators. The key word here is 
``emergency.'' They need regular power. Without potable water 
and proper sewage treatment, we will get sick.
    This email was then forwarded to what appears to be a 
different individual's email address. And the FEMA 
administrator at the time, Brock Long, was copied on this 
email.
    The second individual writes, I know you have had a rough 
time in Houston, but at least you had competent people in 
charge of the response. We have incompetent people in charge 
here and are getting no response to our urgent needs, first of 
all, restoration of power.
    Mr. Witt, if you were leading FEMA's recovery to Hurricane 
Maria, what would have been your plan for addressing electrical 
outages on the island of Vieques?
    Mr. Witt. Well, I was not in place at the time that it 
happened and was not coordinating in the response.
    But let me just share this with you. Hurricane Marilyn that 
hit the Virgin Islands--I flew down there and it destroyed 
power, water, infrastructure, airport. And we were able to get 
things up and running extremely fast.
    Ms. Ocasio-Cortez. Thank you.
    I also want to ask you about the island of Vieques' only 
hospital, which was destroyed during the storm and to this day 
has not yet been rebuilt. The ``New York Times'' published a 
story in April of this year that reported that pregnant women 
in Vieques were forced to travel by boat or plane to the, 
quote, big island 8 miles away to give birth, while dialysis 
patients had to travel three times weekly by boat or plane for 
more than a year after Maria hit. According to that same ``New 
York Times'' report, the hospital remains to this day, quote, a 
shuttered wreck of rust and mold.
    Mr. Witt, when you were the leader of FEMA, was it a 
priority for you to rebuild hospitals destroyed by hurricanes?
    Mr. Witt. Yes, it was. Earthquakes as well. There is a 
company that we work with actually looking at Mozambique right 
now that can fly in a hospital that they set up. It is a 500-
bed hospital, as well as mobile clinics.
    Ms. Ocasio-Cortez. Thank you.
    And is there anything FEMA could be doing now that it is 
not currently doing to help rebuild critical infrastructures 
like hospitals in Puerto Rico?
    Mr. Witt. You know, I have been to Puerto Rico several 
times since the hurricane and done some work down there, 
particularly in the housing, as well as the energy side. You 
know, it hard for me to answer that question by not being there 
in the middle of it.
    Would I have done it different? I do not know. I cannot 
tell you because I have not really looked at the problems or 
what happened there.
    Ms. Ocasio-Cortez. I understand. Thank you very much.
    I yield the rest of my time to the chair.
    Mr. Rouda. I am sorry. Did you yield back? The chair grants 
you an additional 30 seconds.
    Ms. Ocasio-Cortez. Thank you very much.
    Mr. Witt--or rather, Dr. Mann, as climate change worsens, 
we know through scientific consensus and modeling that more 
environmental disasters are to come. Correct?
    Dr. Mann. Absolutely.
    Ms. Ocasio-Cortez. And, Mr. Witt, FEMA is--as its name 
implies, it is the Federal emergency management agency. Its 
primary responsibility is in the short term and emergency 
management of natural disasters. Correct?
    Mr. Witt. It is short-term and long-term.
    Ms. Ocasio-Cortez. Short-term and long-term.
    Do you believe that the agency is fully resourced and is 
actively planning for the full-term transition of the United 
States infrastructure to accommodate for sea level rises and 
other changes brought by natural disasters and climate change?
    Mr. Rouda. The time has expired, but you can answer the 
question.
    Mr. Witt. I think that there is a lot that needs to be 
done, as Mr. Currie had said earlier, particularly on the 
training side of employees and new employees that has come on 
board. We had a very, very important training program when I 
reestablished FEMA and rebuilt it. And I think also that with 
the amount of people that they have on board now, which I had 
2,600 employees, full-time employees--and I think they have got 
almost 9,000 now. But they have had 220 Federal disasters in 
two years. I had 340 in eight years. So you can tell that it is 
changing very quickly and climate change is a big part of it.
    Mr. Rouda. Thank you.
    The chair now recognizes myself for five minutes of 
questioning.
    And I would like to start with just making sure we level 
set here. There has been some discussion, as the ranking member 
suggested, that after a natural disaster or a significant 
storm, that there is media that says it occurred because of 
climate change. And hopefully that is not happening, and I have 
not seen anybody actually say that. So I would agree with him, 
if it is being said, that is incorrect.
    But what is correct is that climate change is causing 
storms and weather events to be bigger, badder, meaner, and 
more often. Is there anybody on the panel that disagrees with 
that comment?
    Dr. Curry does not agree with that comment. So, Dr. Curry, 
if I understand your testimony correctly, you are suggesting 
that there is either no evidence of human-caused climate change 
or insufficient evidence of human-caused climate change. Is 
that correct?
    Dr. Curry. No. I thought your question was specifically 
with regards to natural disasters and extreme weather events.
    Mr. Rouda. Well, let me ask you, do you believe that 
humankind is causing climate change?
    Dr. Curry. As a scientist ``believe'' is not in my 
vocabulary.
    Mr. Rouda. Do you have scientific data that supports the 
belief?
    Dr. Curry. No.
    Mr. Rouda. The outcome, the evidence.
    Dr. Curry. No. I provide assessments of----
    Mr. Rouda. Would you agree that if we doubled the burning 
of fossil fuels, that that would arguably increase temperatures 
faster in our atmosphere?
    Dr. Curry. Sure. The question is how much relative to 
natural variability. That is the big question.
    Mr. Rouda. Agreed. There is natural variability.
    But, Dr. Mann, what would your take be on that? Is there a 
point where we can agree that burning of fossil fuels impacts 
climate change and global warming?
    Dr. Mann. And despite what Dr. Curry has said, there is in 
fact a robust consensus, and the various assessment reports she 
referred to actually demonstrate that there is a detectable 
human impact on these natural disasters, on hurricanes, on 
wildfires, et cetera.
    Now, when she talks about these natural cycles and she 
referred to the Atlantic Multidecadal Oscillation, well, I 
coined that term more than a decade and a half ago. And it is 
based on research that I published at the time.
    More recent research by my group and myself has shown that 
what many of these scientists are attributing to a natural 
cycle is in fact just the impact of humans on the climate, but 
the irregularity--because we had an increase in blocking of 
sunlight from pollutants in the 1950's through the 1970's, so 
there was sort of a plateau in warming. Then it accelerated 
when we passed the Clean Air Act. So if you subtract off a 
line, you get what looks like an oscillation left over, but it 
is not a real oscillation. It is the irregularity of our 
impact.
    Mr. Rouda. You mentioned the Clean Air Act. I am just 
curious because I want to have the testimony here. Climate 
change, global warming aside, is there anybody here that does 
not think that renewables over fossil fuels would improve the 
air and the health of Americans?
    [No response.]
    Mr. Rouda. Well, that is good to see.
    So, Mr. Currie, let me turn to you next. Can you elaborate 
more on just a better understanding of the economic and human 
impact due to climate change and global warming as we continue 
with the hockey stick that Dr. Mann has pointed out?
    Mr. Currie. Yes, sir. Well, at GAO, we are the auditors of 
the Federal Government. So we approach this from the issue or 
the perspective of the fiscal exposure that climate change 
risks present to the Federal Government. And when I say the 
Federal Government, ultimately I also mean the taxpayer. So I 
will give you a couple examples.
    Disaster aid is one I talked about. I mentioned the $450 
billion, taxpayer money, that goes from the Federal Government 
to state and local entities to help response and recovery.
    But it is not just disaster aid. National Flood Insurance 
is backed by the U.S. taxpayer. It is $21 billion in debt. They 
owe the Treasury $21 billion, and that is after almost $16 
billion was erased last year. It is an insolvent program. It 
does not take in enough money to cover its costs. The same with 
crop insurance.
    The list goes on and on in terms of the Federal 
Government's stake in this from a financial perspective.
    Mr. Rouda. And we are actually seeing conversations taking 
place right now on Wall Street that is asking that certain 
bonds take into effect the inherent risk of climate change. So 
they certainly are seeing the impact that climate change, 
human-caused climate change, can have on municipalities.
    We are also seeing the insurance industry and the real 
estate industry looking at the potential impact on future home 
sales, future home building, the ability to insure those homes 
in certain areas, which is going to layer in additional 
economic costs. Often it is not going to be factored in to what 
we look at when we look at the impact of these storms.
    I have got a few seconds here left. Dr. Mann, I would just 
like to ask you are there any other inconsistencies in the 
testimony you would like to address?
    Dr. Mann. Yes. I want to talk about the issue of wildfires 
because there was this claim made that most of the increase in 
wildfires--in fact, I believe it was our President who claimed 
that it was just a matter of needing more rakes at some point. 
And we heard sort of a semblance of that claim earlier here in 
this room today.
    There are scientists who have very carefully looked at the 
impact of changing land use patterns, changing fire suppression 
practices, and the impact that both those factors and the 
human-caused factor of climate change has played. And what they 
conclude--if you look at the tripling--and yes, there has been 
a tripling in the extent of wildfire in the western U.S. over 
the past few decades--no more than half of that can be 
explained by any of these other factors. At least half of it is 
due to the warming and the drying and the perfect storm that 
that creates for these massive, very fast-spreading wildfires.
    Mr. Rouda. And prior to the invention of rakes, what did 
humankind do with these forests?
    Dr. Mann. Slash and burn.
    Mr. Rouda. Thank you.
    That concludes my questions.
    I would like to thank the first panel for their testimony, 
and you are free to go.
    As the witnesses are switching out, please be aware that 
you may receive additional written questions for the hearing 
record, and we would appreciate your prompt and thorough 
response.
    We are going to take a short break, and then we will 
welcome our final witnesses and get started again. So let us be 
back together in about two minutes.
    Again, thank you very much for being here today.
    [Recess.]
    Mr. Rouda. Well, good afternoon, everyone. Thank you for 
the quick change-around in the final witnesses here, and thank 
you for your patience.
    We have with us Stephen Costello, Chief Recovery Officer of 
the city of Houston; Adrienne Williams-Octalien, Director, 
Office of Disaster Recovery, Virgin Islands Public Finance 
Authority; Mark Ghilarducci--hopefully I got that right--
Director of California Governor's Office of Emergency Services; 
and Omar Marrero, Executive Director, Central Office for 
Recovery, Reconstruction, and Resilience, Commonwealth of 
Puerto Rico.
    Please stand and raise your right hands, and I will begin 
by swearing you in.
    [Witnesses sworn.]
    Mr. Rouda. Let the record show the witnesses answered in 
the affirmative.
    Microphones are sensitive, so please speak directly into 
them.
    Without objection, your statement will be made part of the 
record.
    With that, Mr. Costello, you are now recognized to give an 
oral presentation of your testimony for five minutes.

STATEMENT OF STEPHEN COSTELLO, CHIEF RECOVERY OFFICER, CITY OF 
                            HOUSTON

    Mr. Costello. Thank you. Good afternoon, Mr. Chairman and 
honorable committee members. My name is Stephen Costello for 
the record. I am the Chief Recovery Officer for Houston's Mayor 
Sylvester Turner. Thank you for the opportunity to testify 
today.
    I have provided the committee written testimony. As such my 
statement today is really going to be some highlighted issues.
    First of all, to talk a little bit about Houston. Houston 
historically has experienced flooding generally six to eight 
years on occasion and isolated because Houston is such a very 
large city of over 620 square miles. As such, because of the 
infrequency of flooding, drainage infrastructure investment was 
never a priority until 2015, 2016, and Harvey in 2017 where 
Houston had experienced 500-year floods all three years. The 
hurricane particularly had impacted not just an isolated area 
of the city of Houston but the entire city. And now our people 
live in fear every time there is a forecast of rainfall.
    This leads us to the main question of today's panel. Are we 
safer today than we were pre-Harvey? And the answer is a 
resoundingly no. This assessment is based on recovery efforts 
and the Federal process that I will highlight in my testimony.
    But in the interim, the city has taken the lead toward 
resiliency consistent with Mayor Turner's goal, and I quote. We 
cannot just build back for future failure. We must build 
forward for more resilience.
    And before I expand upon the challenges of recovery and 
Federal process, I want to highlight what the city has been 
doing since Harvey.
    So post Hurricane Harvey, we have implemented some of the 
most restrictive flood plain development ordinances in the 
Nation, requiring all new structures to be constructed 200 feet 
above the 500-year flood plain, which is contrary to FEMA's 
minimum standards of 1 foot above the 100-year flood plain. If 
these rules were in place prior to Harvey, over 84 percent of 
the homes that flooded during Harvey would have been protected.
    We have also revised our design criteria relative to 
detention and drainage for future development and its impact on 
its neighbors. In 2018, the voters of the city of Houston 
passed and reauthorized a $6 billion funding for urban 
infrastructure, specifically geared toward drainage. And in 
that same year, $2.5 billion was approved by the residents of 
Harris County of which encompasses the city of Houston for 
flood damage reduction.
    The city has also developed a green infrastructure 
incentive program to encourage developers to build green 
infrastructure. We are in the process of preparing a climate 
action plan, and we are working on a citywide resiliency plan.
    So those are what the city is doing to try to get to 
resiliency because we know we have to do our part. We cannot 
rely on the Federal Government.
    My following comments, however, are going to relate to the 
progress of recovery.
    Houston interfaces with two primary Federal agencies in the 
recovery process: HUD and FEMA. And my comments now are just 
going to be focusing on FEMA. But I do want to say this on 
behalf of Mayor Turner. We really appreciate the role the 
Federal Government plays during a disaster, and we want to 
thank FEMA for everything that they have done.
    But I want to talk specifically about public assistance. 
FEMA's public assistance program allows for reimbursement of 
debris removal, emergency response activities, repair, 
reconstruction, and mitigation efforts on city-owned 
facilities. However, multiple reviews, extensive document 
verification on concurrence of dollar amount and scope of work 
presents major delays in obtaining these dollars for recovery. 
We have estimated over $2 billion of impact to our facilities, 
and as of today, only $336 million are in process. But please 
note that of the $336 million, $160 million was advanced to us 
immediately after Harvey for debris removal and for sheltering, 
which is what Mr. Witt had described that FEMA had changed 
their policies years ago for that, and we appreciate that. But 
that being said, in 22 months, we have only processed an 
additional $22 million of recovery. So when we talk about FEMA 
long-term, we describe it to our community as long-term 
investment. It is not going to be 1 or two years. It is going 
to be five or six.
    The other program that FEMA has is the hazard mitigation 
grant program. And in September 2017, FEMA had given the state 
of Texas $870 million for hazard mitigation grant projects. To 
date, we have yet to get $1 for the city of Houston. We have 
three projects that have been in the process of getting work 
done, getting scopes approved so that we can start the work 
effort. The way the Federal Government can help in this process 
is to allow applicants to do pre-award activity, to allow 
applicants to do phasing of construction because the process in 
hazard mitigation is focused primarily on two phases. You 
design an entire project and permit it, and then you go to 
construction where a lot of these projects can be phased, 
particularly when you are in the time zone relative to getting 
these projects done within a 36-month period, particularly when 
you are seeking right-of-way and acquisition of property.
    So I will conclude my testimony there and look forward to 
further questions. Thank you, Mr. Chairman.
    Mr. Rouda. Thank you, Mr. Costello.
    The chair now recognizes Ms. Williams-Octalien for five 
minutes of oral testimony.

 STATEMENT OF ADRIENNE WILLIAMS-OCTALIEN, DIRECTOR, OFFICE OF 
 DISASTER RECOVERY, ON BEHALF OF VIRGIN ISLANDS PUBLIC FINANCE 
                           AUTHORITY

    Ms. Williams-Octalien. Good afternoon, Chairman Rouda, 
Ranking Member Comer, and members of the committee. I am 
Adrienna Williams-Octalien, and I am the Director of the Office 
of Disaster Recovery in the Virgin Islands. And I do thank you 
for the opportunity to provide testimony this afternoon on the 
status of the recovery from our 2017 Hurricanes Irma and Maria 
and the challenges that climate change poses to preparedness 
and recovery.
    The 2019 hurricane season is one that is being faced with 
great trepidation, and the residents of our territory are armed 
with a greater understanding of preparedness. We are still 
vulnerable and aspects of the infrastructure are still 
compromised.
    The Virgin Islands Territorial Emergency Management Agency, 
VITEMA, began preparedness efforts and they have validated 
shelters and confirmed the availability of commodities and 
delineated plans for dissemination of resources in the 
aftermath of any event that we may face. Governor Albert Bryan, 
Jr. has issued a directive to all of the agency heads, 
particularly the leads of the emergency support functions, to 
ensure readiness for this hurricane season.
    The Virgin Islands Office of Disaster Recovery was 
established in February 2019 and serves as the center of 
coordination for all recovery efforts. Efforts are at full bore 
to bring our critical infrastructure and facilities online. To 
date, we have opened the temporary facilities at the Myra 
Keating Clinic on the island of St. John. We are working to 
finalize the temporary facilities at the Juan F. Luis Hospital 
on St. Croix and completing the damage descriptions to finalize 
funding for the repair of the Roy Lester Schneider Hospital on 
St. Thomas. Residents are still, however, being flown off-
island to access critical care that otherwise cannot be 
provided by our health care facilities. This has a detrimental 
financial impact to the territory's public health system as 
much needed revenue to support our institutions leave with 
these patients.
    All our schools were put back in session by incorporating 
the usage of temporary modular classrooms and the consolidation 
of schools. We continue to work with FEMA to approve industry 
standards to finalize our fixed cost estimates and for the 
replacement or repair of all our schools.
    The greatest progress has been made in the area of energy. 
Over 1,100 composite poles have been installed to date and 
engineering work has commenced for the undergrounding of power 
lines. Plans are also underway to help build photovoltaic 
plants with battery storage with the micro grid concept in 
mind.
    Housing, though, remains an area of great concern, as we 
still have families with compromised roofs covered with 
tarpaulins which have exceeded their life expectancy. Through 
the FEMA STEP program, the territory has been able to repair 
7,200 homes with over 3,500 homeowners still in need of 
repairs. The EnVision program funded through CDBG-DR is slated 
to address the remaining homes.
    The territory appreciates the efforts of Congress and the 
provisions of the Bipartisan Budget Act of 2018 that provided 
special considerations for the complexities of recovery efforts 
in Puerto Rico and the Virgin Islands.
    The additional assistance of $27 million, along with the 
special considerations for inclusion of additional damages in 
the repair versus replacement calculations, and the Additional 
Supplemental Appropriations for Disaster Relief Act, 2019, will 
prove invaluable in our efforts toward resilience.
    The territory is working to understand its vulnerabilities 
and devise strategies to mitigate the effects of climate 
change.
    VITEMA, in conjunction with the University of the Virgin 
Islands, is developing a comprehensive hazard mitigation and 
resilience plan for the territory. The plan will be the result 
of a multi-sectoral effort that integrates the principles of 
resilience, sustainability, and climate adaptation.
    The territory understands the potential for the 
intensification of storms and through legislation mandated the 
auto adoption of the IRC and IBC building codes. This will 
ensure that the territory is building to the latest standards. 
FEMA provided recovery advisories after the storms to offer 
additional guidance for reconstruction.
    And for the first time, the Virgin Islands was added to the 
U.S. Drought Monitor map. Drought monitoring began this month.
    The territory is still a long way from recovery. Navigating 
through the bureaucratic maze of the available Federal funding 
is daunting, and relief is never provided as quickly as needed. 
The 2017 hurricanes not only wreaked havoc on our critical 
infrastructure but to the treasury of the Virgin Islands as 
well. The financial impact of the back-to-back storms was 
$11.25 billion, and the projected revenue loss from the storms 
is $576 million. Projects funded under FEMA's public assistance 
program are expected to cost $5 billion with a 10 percent 
match, requiring total, approximately $500 million.
    We thank you for this opportunity, and we look forward to 
working closely with our Federal partners to continue to move 
our recovery forward. Thank you.
    Mr. Rouda. Thank you, Ms. Williams-Octalien.
    And, Mr. Ghilarducci, you now have five minutes for oral 
testimony.

STATEMENT OF MARK GHILARDUCCI, DIRECTOR, CALIFORNIA GOVERNOR'S 
                  OFFICE OF EMERGENCY SERVICES

    Mr. Ghilarducci. Okay, great.
    Good afternoon, Mr. Chairman and members of the committee. 
Thank you for inviting me today to provide you all with both 
context and perspective of California's challenges as we 
continue to recover from a series of climate-driven 
catastrophic disasters.
    California has been severely impacted by the effects of 
climate-driven events in the form of drought, tree mortality, 
atmospheric rivers, floods, debris flows, and of course, major 
wildfires, all record-setting events and all of those in the 
last two years.
    In 2017 and 2018, we had over 3 million acres burn in 
California, roughly 17,000 wildfires, eight of those resulting 
in catastrophic losses. As well, that resulted in 160 
fatalities due to these disasters. The Camp Fire alone in 2018 
in Butte County was the most destructive wildfire in 
California's history: 19,000 homes and businesses destroyed, 
more than 30,000 people displaced, more than $12 billion in 
insurance losses, 85 fatalities, the loss of generally an 
entire town, including the critical infrastructure, the 
services, and the businesses.
    It is important to note that California's wildfire season 
is now almost year around. Climate change acts as a force 
multiplier. The state's most impactful drought in modern 
history occurred between 2011 and 2017, resulting in long-
lasting environmental impacts that have set up dynamics for 
ongoing fire situations.
    For example, the tree mortality phenomenon that has killed 
over 147 million trees throughout the state has compounded the 
risk of mega-fires.
    Overall, 15 of the 20 most destructive fires in California 
have occurred since 2000, 10 of the most destructive since 
2015. This trend is expected since 2015. This trend is expected 
the continue, as outlined in California's Fourth Climate Change 
Assessment, which projects the estimated burn area for fires to 
increase by 77 percent by 2011--2021. Sorry.
    And 25 million Californians live in the wildland area, 
which are considered either very high or extreme in this area 
in what we call the urban-wildland intermix.
    Since 2017, we have received nine major Presidential 
disaster declarations since 2017. Those six were for fires; 
three were for atmospheric rivers and storms. 55 of 58 counties 
in California were included in these major disaster 
declarations, and for California to receive a major disaster 
declaration, there needs to be at least $60 million in public 
infrastructure destroyed, as well as other eligible costs.
    One significant challenge, of course--and it has been 
mentioned earlier--is the issue of debris and debris management 
after these fires. Debris management after these catastrophic 
fires is not like hurricane debris. The debris here includes 
massive amounts of toxic materials, asbestos, and the material 
of the homes incinerate down to the ground. It includes 
concrete, steel, cars, fuels, and other kinds of hazardous 
materials.
    Debris removal is essential, however, for the economic and 
overall recovery of disaster-affected communities. So far more 
than 4 million tons of debris have been removed from public and 
private properties since 2017. And the October North Bay fires 
alone, 2017 constituted the debris operation since the 1906 
earthquake. That was a big deal until 2018, which we were 
followed by Butte County's Camp Fire, which resulted in now the 
single largest debris mission ever managed by the state, over 
$2 billion in cost to clear more than 22,000 sites.
    And the impacts to individuals have been profound as well. 
Cumulatively across the counties, more than 83,000 Californians 
have been assisted by disaster recovery centers.
    And I do want to thank FEMA for their tremendous 
partnership, FEMA region 9, and FEMA has been a great partner 
for us. In 2017, more than 28,000 households were approved for 
FEMA individual assistance, totaling more than $23 million in 
aid. And in 2018, more than 31,000 Californians were eligible 
for individual assistance registration.
    Following both 2017 and 2018 disasters California 
established the long-term housing task force to address the 
complexities that we have with housing. As you know, California 
already has a housing shortage. Disasters make that much worse, 
and when you lose an entire town in an area with less than 1 
percent vacancy prior to the fire, you have a major problem. 
You actually have a homeless problem. It exasperates the 
situation dramatically.
    Housing solutions for survivors need to be scalable and 
flexible to diverse populations and geographics, 
environmentally sustainable, and cost effective to the impacted 
local and state governments.
    FEMA's direct housing program revolves around manufactured 
housing units. It is an old-school approach. It needs to be 
modernized. Local ordinances and public health and safety 
hazards often prevent survivors from placing these MHUs on 
their own property. Identifying suitable locations for group 
sites is time consuming, is costly and in fact, the cost to 
deliver and hook up a single mobile home ranges from $100,000 
to $500,000 a unit. That is just crazy. Right? So this money 
could be better spent expanded into other more flexible areas.
    Mr. Rouda. If you could wrap up your testimony, please.
    Mr. Ghilarducci. Great.
    Last, let me talk about quickly some key lessons learned 
and one of them is in the area of emergency communications and 
sharing information with the public.
    Our cellular networks are not hardened to withstand natural 
disasters. This was highlighted in 2017 during the fires, which 
we saw a total of 341 cell sites go offline. And in 2018, we 
saw a total of 489 cell sites go offline. They were off for 
many days, not available during the initial hours of the fires, 
and they hindered the ability to get in the 911.
    Mr. Rouda. Mr. Ghilarducci, I will bring that up in my 
questions with you. I need you to wrap up.
    Mr. Ghilarducci. With that, I will stop there, and then be 
open for questions later.
    Mr. Rouda. Okay. Thank you.
    Mr. Marrero, you have five minutes of oral testimony. Thank 
you.

 STATEMENT OF OMAR MARRERO, EXECUTIVE DIRECTOR, CENTRAL OFFICE 
         OF RECOVERY AND RECONSTRUCTION OF PUERTO RICO

    Mr. Marrero. Thank you, Chairman Rouda, Ranking Member 
Comer, and members of the committee. Thank you for the 
opportunity to discuss Puerto Rico's recovery, resilience, and 
readiness in the aftermath of Hurricanes Irma and Maria. On 
behalf of Governor Ricardo Rossello, it is my honor to be here 
today.
    Certainly Hurricanes Irma and Maria presented Puerto Rico 
with several very serious challenges. The impact to the island 
and our unique environment was catastrophic. Our 
bioluminescence bays, El Yunque National Forest, our amazing 
beaches, our agriculture, and our extraordinary geographical 
features were all devastated.
    Given the role of tourism and agriculture in the economy, 
billions of dollars of revenue were lost just as Puerto Rico 
was beginning to address a manmade disaster: its bankruptcy.
    Just as importantly, the hurricanes exposed the 
vulnerability caused by decades of under-investment and 
deficient maintenance in our critical infrastructure, a 
vulnerability this body addressed with a one-time allowance in 
the legislation to reset our most critical infrastructure to 
industry standards. We cannot thank you enough, and we 
recognize the importance of being good stewards of this 
taxpayer investment.
    These catastrophic storms taught us that the lives, safety, 
and security of our residents, as well as the environmental 
state of our island, depends as much on our local capacity to 
respond to the immediate emergency as it does in the capacity 
to master a proportionate and timely response from the Federal 
Government. We continue to build and develop, in coordination 
with FEMA, these capabilities.
    Let us be honest but clear. We are much appreciative of the 
help that we have received from the Federal Government, 
including FEMA and HUD.
    Twenty-one months into our recovery with over $100 billion 
in damages, we are keenly aware that climate change is making 
natural disasters more frequent, more damaging, further 
underscoring the need to build back in a more resilient and 
intelligent manner.
    Puerto Rico remains especially vulnerable to the impact of 
climate change-enhanced disasters due to our unique 
geographical position. And, unfortunately, a series of 
decisions by Federal agencies have slowed our post-disaster 
recovery compared to the post-disaster recovery in other 
jurisdictions stateside. This includes, among others, 
inconsistencies in FEMA's guidance with respect to the 
implementation of section 428, a very recent change in the way 
FEMA will perform its role in the management and recovery 
funds, causing additional delays, reducing Puerto Rico's 
ability to lead the recovery, and further impeding our ability 
to meet FEMA's October deadline for the fixed cost estimates, a 
failure to agree on a definition of industry standards and a 
refusal to allow Puerto Rico to use its own licensed engineers, 
as was done in New York and New Jersey, and less significant 
obstacles continue to create the impression that we are neither 
trusted nor permitted to lead our own recovery. FEMA says that 
recovery is federally supported, state managed, and locally 
executive process. Unfortunately, this has not been the 
experience of Puerto Rico.
    The island depends on FEMA, and while we remain a territory 
on the good will of this hallowed body, despite every effort of 
Congress to help us recover, today Puerto Rico has only 46 
permanent work projects approved. Forty-six. In contrast in the 
same timeframe, over 13,000 projects were approved for 
Louisiana and Mississippi in the wake of Hurricane Katrina, 
certainly a figure that is mind-blowing.
    Despite the challenges, Puerto Rico is optimistic, 
determined, and full of potential as we consider our ever-
changing global environment and how we must work together to 
protect our planet. I am proud to report that Puerto Rico is 
emerging as a leader in sustainability and renewable energy of 
the United States. For us, it is not an option. It is not a 
luxury. We have a social responsibility for future generations 
to do so.
    Our goal is simple, is to avail ourselves of this moonshot 
opportunity to re-imagine, revitalize, and rebuild Puerto Rico 
so it can develop its full capacity for the benefit of the 3.2 
million U.S. citizens who live there and for America as a 
whole, a responsibility we share with the Federal Government. 
And we are fully committed to execute it.
    Thank you, and I look forward to your questions.
    Mr. Rouda. Thank you, Mr. Marrero. Can you clarify one 
thing? You said the number of projects that have been funded 
for Puerto Rico----
    Mr. Marrero. I am sorry. When I referred to the 46 figure, 
I am referring to the fixed cost estimates that we have agreed 
with FEMA up to this date.
    Mr. Rouda. And you compared it to the Mississippi and----
    Mr. Marrero. And Louisiana.
    Mr. Rouda [continuing]. Louisiana. What are those numbers 
again? One more time.
    Mr. Marrero. 1,300 projects compared to 46 fixed cost 
estimates that we have finalized right now for permanent work 
under section 428.
    Mr. Rouda. Thank you very much.
    Mr. Marrero. You are welcome.
    Mr. Rouda. At this time, the chair would like to recognize 
Congresswoman Tlaib for five minutes.
    Ms. Tlaib. Thank you, Mr. Chairman.
    As our communities increasingly face threats from natural 
disasters and the destruction that comes with them, we know 
that local and state governments alone are not equipped to 
handle the response. My residents in Dearborn Heights need more 
help than that to rebuild after their homes flooded. We need 
Federal resources to respond to the crisis at their scale. And 
the good news is that we, indeed, have specific Federal 
agencies and programs designed to do just that. But the system 
breaks down when the Federal Government refuses to do their 
job.
    One of those concerns I have is that FEMA and HUD are 
holding onto billions of dollars in aid that have yet to reach 
our communities.
    To the panel, I would like to ask each of you how much 
money from FEMA's public assistance grant has been awarded to 
your community and how much have you actually received.
    Mr. Costello. Congresswoman, I will start first.
    So we received $160 million immediately post Hurricane 
Harvey for debris removal, which was what we called expedited 
funding. Post that allocation, we have only received $23 
million to date.
    Ms. Tlaib. If you all can answer that question, if you do 
not mind.
    Mr. Rouda. Can you also say how much was allotted?
    Mr. Costello. So on public assistance, this is a 90 percent 
Federal share, 10 percent local share. So what happens is each 
project we negotiate with FEMA on what the recovery cost is. So 
similar to what Puerto Rico was describing, we anticipate 
somewhere north of 460 projects, individual projects like, for 
instance, city hall flooded. That is one project. Our 
wastewater treatment plant--that is another project. So we have 
probably somewhere around 25 projects we have agreed to 
resolution on cost. The balance of them are still in the 
negotiation process two years post the event.
    Ms. Tlaib. Two years.
    Mr. Costello. Yes, ma'am.
    Mr. Marrero. Well, if you go recovery.pr, which is one of 
the initiatives that we have implemented in order to provide 
timely information to all stakeholders, of the $55 billion that 
FEMA has estimated for the public assistance program in Puerto 
Rico, only roughly 10 percent has been obligated, 5.6. Of that 
amount only 3.6, roughly 65 percent, has been disbursed. If you 
take into consideration the fact that we are operating under 
section 428 for permanent work, that is--essentially 97 percent 
of that funding is only for emergency work. So having in mind 
in Puerto Rico we have been operating under categories A and B 
for the last 21 months. That is roughly where we are at.
    Mr. Ghilarducci. So, Congresswoman, I would just answer it 
this way. Given the fact that since 2012 we have had 16 
Presidential disaster declarations across the board, I could 
not tell you today exactly where and how much. I could tell you 
from the standpoint of working with a public assistance program 
that has changed in the middle of these disasters, which has 
resulted in a lot of complexities and has drawn out the time in 
which we were able to get reimbursements. And typically it is a 
situation where I would either have to lean in or work with the 
regional administrator to accelerate a particular project or 
highlight a particular project. There is a lot of work that can 
be done to streamline the recovery process by really cutting 
through a lot of the bureaucracy.
    Ms. Tlaib. So how much in community development block 
grants, CDBG-DR, whatever funds, have you been awarded with and 
how much have you actually received as well? If you can be 
specific. One of my colleagues is asking if you could be 
specific of what you are asking for and what the relief is for.
    Mr. Costello. So on the HUD side----
    Ms. Tlaib. Yes.
    Mr. Costello [continuing]. you are referring to the HUD 
side--we received $1.3 billion on housing recovery from HUD. We 
are waiting for the new guidelines to NOFA for the mitigation 
dollars. The state of Texas is anticipating $4.3 billion in HUD 
mitigation. We understand there are some delays in getting the 
NOFA out, and one of those reasons is that HUD is a housing 
agency not a mitigation agency. So we understand there is a 
delay.
    Ms. Tlaib. Mr. Costello, one of the things that always gets 
lost in committee hearings is the human impact. What has this 
done on the ground for families in Houston? What are some of 
the impacts in recovery efforts to the families in Houston?
    Mr. Costello. So generally what happens is on the community 
development block grant side, we are getting our moneys now to 
families in need of home repair, home reconstruction. The HUD 
mitigation dollars that we are waiting for will be moneys that 
we can do capital projects to provide flood protection to the 
investment of those housing dollars.
    Ms. Tlaib. So are they living with mold?
    Mr. Costello. No.
    Ms. Tlaib. Are they homeless?
    Mr. Costello. So some of these people are either living in 
homes that have not been repaired that we are going out and 
knocking on doors because they are not familiar with the 
program. We have reached out to over 15,000 people post the 
event knocking on doors. We have knocked on over 100,000 doors 
to get them to see if people are interested and need the help 
they need. So we are doing an active role in actually reaching 
out to these people.
    Ms. Tlaib. I am sorry I ran out of time, but thank you so 
much.
    Thank you, Chairman.
    Mr. Rouda. Thank you.
    The chair now recognizes Congressman Higgins for five 
minutes of questioning.
    Mr. Higgins. Thank you, Mr. Chairman.
    Mr. Costello, are you familiar with the Institute for 
Rehabilitation Research, Memorial Hermann Hospital in Houston?
    Mr. Costello. Yes, I am.
    Mr. Higgins. After Hurricane Harvey, did Memorial Hermann 
flood, sir?
    Mr. Costello. I do not believe so, sir.
    Mr. Higgins. Would you explain to America why the hospital 
right there in Houston did not flood?
    Mr. Costello. Well, if you look at Hurricane Harvey, there 
are areas of the city that did flood tremendously and areas of 
the city that did not. I will highlight one Federal project 
that was recently completed, which was Sims Bayou on the 
southeast side of town that had virtually no flooding in the 
entire watershed. So it is really a function of where the 
rainfall occurred, the intensity of the rainfall, and the 
capacity of the existing stream to receive it.
    Mr. Higgins. Just in the interest of time--I appreciate 
your very thorough response, but does Memorial Hermann have a 
flood wall and flood gates built around the hospital? Do they 
have a helipad? Did they assist first responders with their own 
communications center in the wake of Hurricane Harvey?
    Mr. Costello. So, Congressman, if you are referring to the 
entire medical center, they did not flood because of the 
improvements they did post tropical storm Allison in 2001.
    Mr. Higgins. Thank you. That is just what I am getting at.
    And I thank you for your service, sir.
    We have to constantly remind ourselves and our colleagues 
that there is no such thing as Federal money. It is the 
people's treasure. Every dollar we have has been seized from 
the paycheck of a working American. So as we invest the 
treasure in disaster recovery, it is important that we consider 
pre-mitigation efforts we discussed in the first panel and that 
there was no right or wrong answer to that question. Just the 
point is that there is a hospital in the middle of Houston that 
had taken efforts upon its own to protect itself from future 
flooding, and it was very helpful in the wake of Hurricane 
Harvey. And I would suggest that we all consider things like 
this.
    Mr. Marrero, when there is a disaster in the continental 
United States, wherever it is, south Louisiana--we are no 
stranger to hurricanes. There is always a way to get to the 
impacted area because it is on the continental United States. 
But when Puerto Rico was hit in such a devastating manner, it 
struck me, and many of my friends and colleagues in Louisiana 
wanted to help. We were prepared to help. We were there to 
help. And yet, the ports were locked up with aid that could not 
make it inland in Puerto Rico because of the damage to the 
roads, et cetera. And there was no means by which to make beach 
landings. There was no specialty barges standing by to make 
beach landings to bring supplies that had been sent immediately 
and were stacked up in the ports. There was no way to get them 
across the beachheads onto the areas that were impacted through 
roads that were usable.
    Long ago, the Lake Pontchartrain causeway was built in the 
1960's. It has been long referred to as the world's longest 
bridge, 24 miles long. And because of the construction of this 
bridge in south Louisiana, occasionally a section will get 
knocked out by a barge. Tragically cars would drive right into 
it. So it did not take long. Two or three times this happened, 
and now it is mandated on both sides of this bridge--there are 
segments of that bridge standing by ready to be installed 
because of previous loss. And this is the kind of common sense 
that we need.
    So my question to you, sir, is for obvious reasons, Puerto 
Rico, our brothers and sisters whom we love--we need to help to 
assist, respond. But please give us an answer regarding this. 
Is Puerto Rico considering measures to take to be prepared to 
better receive the good will and assistance of the world in the 
wake of a future disaster in the form of having access by 
beachhead?
    Mr. Marrero. Well, sir, first of all, thank you very much 
for the people of Louisiana and the American people that helped 
the people of Puerto Rico in the most dire times.
    One of the strategies that we were assessing with FEMA--it 
was the fact we are a multi-port destination. I know that we 
are a small island, but we have port facilities not only in San 
Juan but also in Ceiba, which is not only we have the deepest 
seaport in Puerto Rico in the former Rosie Roads base, but also 
we have the longest runway there. We also have the support in 
the south. We also have the Mayaguez ports.
    So part of the after-action assessment--it was the fact 
that we have the facilities across the island. We just have to 
coordinate in a more effective and efficient way not only with 
the state agency but also with the Federal agencies.
    Even though we had the impacts of Hurricanes Irma and 
Maria, we were able to open the ports 48 hours after. We had a 
bottleneck. Yes, we had a bottleneck because not only we were 
receiving the relief supplies, the high season of Christmas, 
and also several ships that had to stay at the bay when the 
Coast Guard closed the San Juan Bay.
    The simple answer is, yes, sir. We have multiple facilities 
across the island that we need to use in a more holistic way. 
And we are working with the Federal partners. We are working 
with the state partners to make sure that we can use, for 
example, the Rosie Roads base not only for receiving 
reconstruction materials, but also could be a platform for help 
neighboring island, not only USVI and the BVI, but also other 
islands.
    So, yes, the answer is that we are working and making sure 
if something happens--thank God the navigation channel of the 
San Juan Bay was not obstructed. Thank God. But if that 
happened, the story will be either further exacerbated.
    Mr. Higgins. Thank you for your very thorough answer.
    Mr. Chairman, I yield. Thank you for your indulgence, Mr. 
Chairman.
    Mr. Rouda. Thank you.
    The chair now recognizes Congresswoman Speier for five 
minutes of questioning.
    Ms. Speier. Mr. Chairman, thank you.
    And thank you all for being here.
    I guess I would like to start with you, Mr. Marrero. We 
hear a lot about Puerto Rico and yet we do not, I think, know 
precisely the condition of the island as it relates to the 
people. How many people are still homeless?
    Mr. Marrero. 20,000.
    Ms. Speier. Did you say 20,000?
    Mr. Marrero. 20,000 families. 20,000 families are right now 
still with blue tarps. That number is being revised with the 
mayors across the island to make sure that they are prioritized 
through the R3 program of the CDBG. That is repair, 
rehabilitation, and relocation of families.
    Ms. Speier. How many hospitals are still inoperable?
    Mr. Marrero. Let me make it a little bit easier. Right now, 
there is no hospitals, schools, roads or houses being built as 
a permanent work. No permanent work is being done in Puerto 
Rico. So a thousand schools are still waiting to be repaired.
    Ms. Speier. A thousands schools are in disrepair.
    Mr. Marrero. Yes, ma'am, as well as the hospital, the 
hospital in Vieques, we are still waiting a final determination 
in order to move forward with those projects.
    Ms. Speier. So FEMA has kind of failed. Has it not? Those 
are my words. Maybe you should not even answer it.
    Mr. Marrero. I think that to be completely honest and 
objective, I think that Puerto Rico's recovery has been the 
most complex response in U.S. history. The fact that we are an 
island has been even more complex. So I think that the 
challenge has been present not only on the mainland but also in 
Puerto Rico, and obviously, FEMA has not been able to manage.
    Ms. Speier. Mr. Ghilarducci, one of the things the 
President said was that California does not manage its forest 
lands well. And if I remember correctly, the U.S. Government 
owns most of the forest lands in California. Is that right? 
Could you give us the specific numbers?
    Mr. Ghilarducci. Yes, that is correct, Congresswoman. 
Roughly 70 percent of the lands are Federal lands in 
California, and they are managed by a number of Federal 
agencies.
    Ms. Speier. So if you were to assess the condition of those 
various Federal lands as to their preparedness for yet another 
firestorm, how would you rank them? A, B, C, D, E--well, I 
guess E does not count. A, B, C, D, F.
    Mr. Ghilarducci. I think probably different parts of the 
state have different threats. Some of them are F's, 
particularly in the high tree mortality area driven by the 
drought and the number of dead trees. Some of them are in the C 
minus to D level. There is very few that I would say were in 
the A or B level.
    Ms. Speier. So if we asked you to give us a list of 
preparatory steps that the Federal Government should be taking 
to manage its forest lands, would you be able to do that?
    Mr. Ghilarducci. Well, I would just say efforts that we 
have undertaken--you know, Governor Newsom--it started with 
Governor Brown, now Governor Newsom--of actually investing a 
significant amount of resources to go in and do defensible 
space clearing, making sure that we have----
    Ms. Speier. On Federal lands?
    Mr. Ghilarducci. Well, no, this is on state land. On the 
Federal----
    Ms. Speier. No. I understand that you are doing a lot on 
the state side. I am trying to figure out--what will 
potentially happened this summer is that a fire will break out 
on Federal lands and then gravitate to state lands potentially.
    Mr. Ghilarducci. Yes. I think the Forest Service and the 
Federal agencies are doing some work in the area. They are 
simply not resourced appropriately and lack the funding to be 
able to do anything very significant.
    Ms. Speier. All right. If you could provide us with the 
steps you think that the Federal Government should be taking to 
manage the 70 percent of the forest lands that it has in 
California, that would be helpful.
    Could you tell us a little bit more about how you are 
adapting your wildfire preparedness and response strategies to 
the new conditions introduced by climate change in California?
    Mr. Ghilarducci. So there is a number of initiatives that 
we have underway. The first is that we took a very aggressive 
assessment of the state looking at the highest threat areas, 
the tier 1 and 2, which are high and extreme fire threat areas, 
how they correspond with the urban-wildland intermix, and 
really leveraged all resources, all hands on deck to come 
together working with those local governments to begin forest 
clearing and building in defensible space, doing evacuation 
planning. We have been working on--we put out new guidelines 
for alert and warning capabilities so that all local 
jurisdictions within the state have a common platform for doing 
alert and warning to the public. And we have increased the 
number of resources, whether it is hard fire fighting assets, 
engines, helicopters, and personnel, as well as funding 
community groups like fire safe councils and other preparedness 
groups to build capacity within their communities to buy down 
the risk of wildfire.
    Ms. Speier. My time has expired. But if you could put a 
number on that for us, either now or later, that would be 
helpful to us.
    Mr. Ghilarducci. Okay, great.
    Ms. Speier. Thank you. I yield back.
    Mr. Rouda. Thank you.
    The chair now recognizes the Ranking Member Comer for five 
minutes of questioning.
    Mr. Comer. Thank you, Mr. Chairman.
    I would like to followup on what Ms. Speier was talking 
about in California.
    Mr. Ghilarducci, are you familiar with the bill that passed 
out of the House last year pertaining to forest management? It 
was sponsored by, if my memory is correct, Congressman 
Westerman from Arkansas. It dealt with forest management and 
how to potentially alleviate the problems with the lack of 
forest management in California. And that bill, for whatever 
reason, did not make it through the Senate. I was on the farm 
bill conference committee, and we tried to put that language in 
the farm bill to allow better forest management practices in 
California. And there was intense opposition for that language 
being added by several members of the California delegation. 
You were not in Congress, Mr. Chairman, so I am not talking 
about you.
    I did not know if you were familiar with that bill and if 
you had any thoughts on that bill because we had people that 
were coming in to testify to us with utility companies saying 
that there is a theory that the big Camp Fire started because a 
limb was struck by lightning. It ignited the fire. With all the 
lack of forest management, it quickly spread. But there are 
regulations in California that do not allow utility companies 
to cut limbs along the lines of utility lines and just a lot of 
excessive, unnecessary regulations that have unintentional 
consequences.
    Mr. Ghilarducci. Well, there is a lot in that question. And 
let me just say that on the Camp Fire, which--it has not been 
determined that that fire was started by a downed power line.
    The conditions is what we kind of have to look at it. It is 
more just what the status of the forest is. In the case of the 
Camp Fire, the Town of Paradise and the surrounding communities 
had been awarded several recognition awards for being the most 
fire-resilient communities in the wildland-urban interface. The 
fact is that the fire started in the upper canyon, and the 
conditions that night were so extreme, in fact, the most 
extreme that many of us in the fire service had seen in our 
entire career, where literally it blew that fire into a 
community that was managed appropriately. So I think you have 
to take each one of these--it has its own signature to it--and 
look at it.
    I would say that we would agree in California that there 
have been some regulations that have been restrictive, and they 
have been being looked at. And many of them have been changed. 
Both Governor Brown and Governor Newsom have instituted 
executive orders to streamline the issue of being able to go in 
and do some forest management and with the utilities, working 
with them to be able to clear back defensible space along their 
power lines.
    It is a new norm, and it is something that we all have to 
look at in a broader context with regards to both pre-event and 
then post-event hazard mitigation.
    Mr. Comer. I think you would find bipartisan support in 
Congress to try to work with California to reduce the 
regulatory burden to try to better manage the federally owned 
forest lands there.
    The next question I want to ask--Mr. Costello, I share your 
frustration with FEMA being slow on paying their bills and 
obligations. I represent the western Kentucky area along the 
Mississippi River that has experienced flooding and get a lot 
of calls from disgruntled local officials that have not 
received their FEMA funding. So I share your frustration with 
that. I think historically that has been a problem with FEMA.
    What are some things FEMA can do besides the point that you 
make, which I agree, trying to process their transactions 
quicker and besides more funding? What are some things FEMA can 
do to better serve the needs of people that have been 
negatively affected by disasters?
    Mr. Costello. Congressman, I was hoping someone would ask 
me that question.
    So I have a little chart here. I know it is very hard to 
see. It has 45 separate steps associated with one project on 
public assistance, and within those 45 steps, you go through 
two separate audits inside FEMA, and then it goes to OMB for an 
audit. If it is over a million dollars, it goes to a 
congressional group. After that, it then flows back down to the 
state who is a recipient for a fourth audit before the city 
even gets the funds. So it is not the people that work within 
FEMA. They really want to help the communities. It is the 
process. There is something wrong with the process specifically 
on the public assistance side. And that is really the problem 
that we are having.
    Mr. Rouda. Thank you.
    The chair now recognizes myself for five minutes.
    Mr. Ghilarducci, as you know, I am from southern California 
and obviously very concerned about wildfires not just in 
southern California and Orange County, but throughout 
California and the west. But I do want to make sure that we 
clarify a couple points here.
    My understanding--you mentioned earlier that 70 percent of 
California are federally controlled lands. But my recollection 
on the fires, that it was approximately 90-plus percent was 
Federal lands that burned. Am I correct in that number?
    Mr. Ghilarducci. Many of the fires that we saw these past 
two years were on Federal lands. They may have started on 
Federal land as well and then rolled into a state 
responsibility area. So there were a number of state lands as 
well that burned.
    Mr. Rouda. And I just want to make sure too that we have 
the proper narrative here because sometimes we see in the press 
and some of the comments and some of the tweets that California 
laws and regulations are the ones that are causing some of the 
issues here. Are you aware of any California State law that 
usurps the Federal management of the Federal-controlled lands 
in California or anywhere else in the United States?
    Mr. Ghilarducci. No, I am not.
    Mr. Rouda. That is what I thought.
    So we recognize that the Federal Government has control 
over Federal lands both in California and 49 other states in 
the management of those lands. Is that a correct statement?
    Mr. Ghilarducci. I believe so.
    Mr. Rouda. Thank you.
    And I also want to talk a little bit about--you and I had a 
chance to talk earlier today about an area of concern for all 
of us in the U.S., and that was you talked a bit about the 
ability for proper communication during natural disasters and 
making sure that we have appropriate fortifications for 
communication systems. I would love for you to elaborate on 
that and what we experienced in California when those 
communication systems go down.
    Mr. Ghilarducci. Thank you, Mr. Chair, on addressing it 
because it is something that we need to really think about. We 
as a society generally are moving 100 percent onto these 
devices. We are off of land lines. We are on to the cellular 
network. And as such, we have become dependent upon getting all 
of our information on these devices. And really the system that 
manages these devices is not government-owned or controlled. It 
is privately owned and controlled. Yet, we really depend upon 
this for our lifesaving operations.
    And so as we move forward, we are finding in these 
catastrophic events--and it is really not just California and 
the wildfires. I have talked to my colleagues in hurricane-
prone states and tornado-prone states where they have seen 
similar kinds of failures. The resiliency of the system, the 
cell sites, the back haul--we are talking about the fiber 
lines--is not as hardened as it needs to be, something I call 
public safety grade.
    Mr. Rouda. And it is not just the people living there. It 
is actually the first responders who are relying on that 
communication foundation as well.
    Mr. Ghilarducci. Of course. We all are depending upon this.
    And look, let me say that AT&T and Verizon and all the 
other major--they are partners with us, and they do provide 
resources when we need them. But that is different than what we 
are talking about. When we talk about making forests more safe 
or doing hazard mitigation or home retrofitting, we also need 
our infrastructure to be as hardened as possible. And we are 
seeing too many failures in this system that we count on the 
most. And I would just say that it is an area that needs to be 
improved and it has to be done very fast because we are seeing 
too many numbers of cell sites go down. And this is a time when 
we are trying to get evacuation information out, fire data. All 
of that is getting to the public, and we have a public that is 
not being able to get that information.
    Mr. Rouda. Well, as Mr. Higgins testified earlier or 
questioned earlier, it is important that we make sure that we 
have the appropriate infrastructure in place to better address 
these events.
    Mr. Costello, I want to go back. That chart was 
fascinating. And I want people to have a better understanding 
that when FEMA does come in and provides immediate support, 
that is important. That is lifesaving support right then and 
there. But there is a long process to get back to normal times 
for these communities. And it sounds very much, from the 
testimony here today, that it is taking years to get proper 
funding in place to get back to normal. Am I correct?
    Mr. Costello. Yes, sir, Mr. Chairman. We anticipate this is 
probably a five to eight-year program to recover on the public 
assistance side. That is correct.
    Mr. Rouda. And, Mr. Marrero, I think you said a thousand 
schools have not been reconstructed or are still----
    Mr. Marrero. Still waiting. To give you some perspective of 
the money that has been disbursed for Puerto Rico, only $25 
million has been disbursed for permanent work. And that is 
essentially A&E, architectural and engineering design. No 
school has been permanent fixed. No house has been permanent 
fixed.
    Mr. Rouda. And when did that hurricane occur?
    Mr. Marrero. Twenty-one months ago, September 20.
    Mr. Rouda. Twenty-one months ago.
    Mr. Marrero. Yes, sir.
    Mr. Rouda. Thank you.
    I now want to turn it over to vice chair, Congresswoman 
Tlaib to take the chair.
    Ms. Tlaib.
    [presiding] I would like to now recognize my good 
colleague, Congresswoman Ocasio-Cortez.
    Ms. Ocasio-Cortez. Thank you, Madam Chair.
    Mr. Marrero, are there patients in Puerto Rico still 
receiving medical care in temporary facilities?
    Mr. Marrero. Yes, ma'am. Vieques island.
    Ms. Ocasio-Cortez. Why has it taken so long to rebuild 
these facilities?
    Mr. Marrero. The process, section--I do not know if you are 
familiar, but in Puerto Rico, we are implementing for the first 
time in FEMA history what is called section 428. Section 428 
was added to the Stafford Act after Sandy, with the Sandy 
Recovery Improvement Act. That is essentially the alternative 
procedure that we need to follow in order to get the 
reimbursement processed with FEMA. In essence, in general 
terms, the big difference is that before you can initiate any 
permanent work or permanent fix, FEMA and the state and the 
sub-recipient--they all have to agree on the fixed cost 
estimate because, in essence, it works like a cap grant. So the 
state and FEMA has to agree how much money you are going to 
have before you can essentially start work.
    Ms. Ocasio-Cortez. I see.
    Mr. Marrero. And also I am sorry to add the fact that 
section 428 is a pilot program. There is no clear guidance in 
writing. So we are essentially designing the plane as we fly 
it.
    Ms. Ocasio-Cortez. And picking up on what my colleague said 
earlier, you said there were 20,000 homes still using blue 
tarps?
    Mr. Marrero. That is an estimate, ma'am, yes.
    Ms. Ocasio-Cortez. How many roads still need to be 
repaired?
    Mr. Marrero. The entire 16,000 miles. There is no permanent 
road--there is no road that has been permanently fixed.
    Ms. Ocasio-Cortez. Not a single road in Puerto Rico has 
been permanently fixed.
    Mr. Marrero. Yes, ma'am. Under FEMA, no.
    Ms. Ocasio-Cortez. And you said not a single home either?
    Mr. Marrero. Yes, ma'am. The 108,000 families that 
participated in the STEP program, it was only a temporary roof 
or temporary repair.
    Ms. Ocasio-Cortez. So not a single home has been 
permanently fixed. Not a single road has been permanently 
fixed.
    Mr. Marrero. Not through the public assistance program or 
FEMA.
    Ms. Ocasio-Cortez. Through the public assistance program.
    Mr. Marrero. We received some aid from a not-for-profit to 
help people, but not under the P8 program under FEMA, you are 
correct, ma'am.
    Ms. Ocasio-Cortez. And not a single school has been 
permanently fixed under the FEMA program as well. Right?
    Mr. Marrero. Unfortunately so.
    Ms. Ocasio-Cortez. I wanted to clarify some inconsistencies 
because I think it is very important for the American people to 
understand the correct facts in this situation on the state of 
recovery.
    We heard the President say last month--he tweeted that 
Puerto Rico has been given more money by Congress for hurricane 
disaster relief, $91 billion. Mr. Marrero, yes or no. Is this 
figure accurate?
    Mr. Marrero. Ma'am, I have my one-pager of that in order to 
make sure that I have the correct facts. $91 billion was an 
internal estimate by the Office of Management and Budget. So 
that was just an estimate of how much it will cost the 
recovery----
    Ms. Ocasio-Cortez. That was an estimate of the cost, but--
--
    Mr. Marrero. For the 10-15 years.
    Ms. Ocasio-Cortez. But they have not been given $91 
billion.
    Mr. Marrero. No, ma'am. Only of that, $41 billion has been 
appropriated by Congress. Unfortunately, only $11.2 billion has 
been disbursed, and essentially that is only for emergency 
work.
    Ms. Ocasio-Cortez. So the answer is no, the figure is not 
accurate.
    How much of the aid allocated to Puerto Rico have actually 
reached the territory?
    Mr. Marrero. $11.2 billion. That includes----
    Ms. Ocasio-Cortez. And it is emergency only. Right?
    Mr. Marrero. Essentially, ma'am.
    Ms. Ocasio-Cortez. And last, when I was last on the island, 
I visited communities that developed sustainable recovery plans 
on their own because there has been no kind of long-term 
permanent recovery investment that has effectively reached many 
communities on the island.
    So I saw that solar panels were ensured--I see that people 
started installing solar panels to ensure that if another 
hurricane were to come, the community would have an energy 
resource.
    Could you share with us about how the people of Puerto Rico 
have responded to this disaster on their own, like some of 
these ad hoc methods that are being used on the island?
    Mr. Marrero. Well, I think that, first of all, when you 
talk about Puerto Rican people, the only word that will come to 
your mind is resiliency. Even though that we have faced so many 
challenges and even those children still waiting for the 
schools to be repaired, thank God no riots, no looting happened 
in Puerto Rico. The people of Puerto Rico--we help ourselves. 
You will see across the island people with a lot of electric 
cords to help their neighbor and help the neighbors. So 
essentially the people of Puerto Rico--they did not wait for 
the government to respond. The government itself was a casualty 
because of the magnitude of the disaster. So people starting 
helping each other. Not-for-profits start getting to Puerto 
Rico and Puerto Ricans just became what we are: Puerto Ricans. 
And we are resilient. We help each other.
    Unfortunately, that may not be an excuse to delay the 
process, to delay the recovery process. So they are still 
waiting. People are still waiting very patiently.
    Unfortunately, I think that we just are at the juncture in 
which we cannot wait. We are talking about people. We are 
talking about children without a playground area, children that 
are not able to learn in a healthy environment, and 20,000 
families still waiting for decent housing to protect their 
families.
    Ms. Ocasio-Cortez. Thank you. Thank you very much.
    I yield back to the chair.
    Mr. Costello. Excuse me, Madam Chair. With all due respect 
to the members, I have to catch a plane. Is that okay? May I be 
excused?
    Ms. Tlaib. Oh, yes. I was like who is talking.
    [Laughter.]
    Mr. Costello. I am sorry. May I be excused?
    Ms. Tlaib. Of course, yes. Thank you so much for joining 
us.
    Without objection, the Representative Plaskett from the 
full committee who represents the Virgin Islands and 
Representative Velazquez from New York is authorized to 
participate in today's hearing.
    And with that, I would like to recognize Representative 
Plaskett.
    Ms. Plaskett. Thank you very much, Madam Chair.
    And I would thank the witnesses for being here today.
    I just wanted to get straight to the questions. I wanted to 
ask Ms. Williams-Octalien some information about the recovery 
process in the Virgin Islands. If you could tell us--now, we 
know that we had damage to both of the hospitals. Can you tell 
us what the assessment is? There are only two hospitals and one 
clinic in the Virgin Islands. And what is the assessment of 
those three facilities and where are they now?
    Ms. Williams-Octalien. So the Juan F. Luis Hospital on St. 
Croix has gotten authorization for replacement, and St. Thomas, 
the Roy Lester Schneider Hospital--we are still working on 
getting our damage descriptions being worked through with FEMA. 
And we have the temporary facilities over in Myra Keating on 
St. John. The clinic is now performing services there.
    One of the key issues that we are having, basically as much 
as Puerto Rico has stated, we are waiting on several things 
from FEMA that will allow us to move forward. So we are really 
in a holding pattern.
    One, cost escalation factors. In order to complete the 
fixed cost estimates, we must agree on what the cost escalation 
factors would be over the life of the disaster and the recovery 
because once we agree to the fixed cost estimate, that is the 
cost that we will have to live with throughout the disaster 
until the project is finished. We are still waiting for FEMA to 
provide that to us, and until we are able to do that, we are 
unable to move forward any of our permanent work in the 
territory.
    Ms. Plaskett. So let us go to one of those hospitals. Let 
us talk about Juan F. Luis Hospital. You stated that FEMA has 
agreed that it needs to be replaced, which means that it was 
more than 50 percent damaged. Correct?
    Ms. Williams-Octalien. Correct.
    Ms. Plaskett. When did that agreement take place of the 50 
percent damage?
    Ms. Williams-Octalien. We only agreed to that last month.
    Ms. Plaskett. So they just agreed 20-something months after 
the hurricane that in fact the only hospital on St. Croix was 
damaged more than 50 percent.
    Ms. Williams-Octalien. Correct.
    Ms. Plaskett. And in the interim, because there was more 
than 50 percent damage, which means that it must have 
difficulty in performing its functions, we understand that 
there was supposed to be a modular unit, which was agreed upon, 
that would take the place. Is that modular unit in place?
    Ms. Williams-Octalien. No. The modular unit is still being 
worked on to be put in place. So we are still working on that 
as well.
    Ms. Plaskett. So there is no modular hospital on one of the 
major islands, and that modular unit is estimated to be in 
place at what time?
    Ms. Williams-Octalien. The rate that we are going at this 
pace right now, it would not be until spring of next year.
    Ms. Plaskett. So another year before the temporary modular 
to await the hospital would be in place. So you obviously have 
a hospital that is not functioning entirely as it should.
    How many operating rooms at the hospital right now?
    Ms. Williams-Octalien. We have one functional operating 
room.
    Ms. Plaskett. So I recall this weekend--and St. Croix is 
the island that I live on. I know that we had a major car 
accident where there was one fatality. People were brought to 
the hospital, as well as a shooting where individuals were 
eventually--they succumbed to the shooting. How does a hospital 
function in that manner when there is one hospital and one 
operating room?
    Ms. Williams-Octalien. The situation is very grave and very 
critical. And as you mentioned, if we have more than one 
emergency at one time, we are really at a loss to be able to 
provide those services. Hence, we continue to airlift our 
residents to other facilities in order to get acute care. You 
know that cannot happen quickly. The nearest destination would 
probably be Puerto Rico or Miami.
    Ms. Plaskett. So I am going to use this time, rather than 
asking you questions, just outlining for my colleagues the kind 
of situation that Virgin Islanders face to allow you to use the 
rest of my time to tell us what would be best for us to help 
you to facilitate this because you and I have spoke, Adrienne, 
a saying that we have in the Virgin Islands, a closed mouth 
does not get fed.
    Ms. Williams-Octalien. Absolutely.
    Ms. Plaskett. So Virgin Islanders have a habit of just 
muddling through things, being proud, and not really being the 
type to complain. But if there are challenges that you are 
facing, if you could enlighten my colleagues as to what we as 
Members of Congress can do, what those challenges are so that 
we could figure out how we can facilitate moving things along a 
little faster.
    Ms. Williams-Octalien. And thank you for that.
    The overall pace of the recovery has been very, very slow. 
And it is really the ability for us to move forward in that 
process. Whether it is the FEMA funds or it is the hazard 
mitigation funds or the CDBG-DR funding, overall the process is 
absolutely frustrating, confusing, and slow.
    And we have been asking FEMA and working with FEMA to allow 
us to move forward on some of the issues that we have over the 
time that it takes for approvals for certain things that we 
have asked for, strategies that we have developed in the 
territory to move forward. We request those strategies--an 
approval for those strategies to a Federal agency, and it takes 
an inordinate amount of time for us to get a response back, 
sometimes making that strategy null and void because we have 
missed the window of opportunity. And we are continuing to see 
that.
    Also the fact that we are not able to get any of our 
projects moving forward, whether it is our schools, our roads, 
our critical facilities, the hospital, as you mentioned, even 
our housing communities. We are still at the point where we are 
waiting on cost escalation factors from FEMA. We are waiting on 
information regarding cost share. All of those factors and the 
timeline for the guidance that has been given--we continue to 
expound the importance and the appreciation that we have for 
all of the legislative reform regarding disaster relief. But 
until we get guidance from either HUD or FEMA, we are unable to 
access those new authorities that are provided through the 
legislation. So when we have these have legislations go 
forward, we ask if there are specific timelines that can be put 
in place to ensure that these Federal agencies do things in a 
timely manner, thereby allowing us to really access the 
authorities that have been granted.
    Ms. Plaskett. Thank you very much for that response.
    And thank you, Madam Chair, for your indulgence in allowing 
her to respond.
    Ms. Tlaib. Thank you.
    With that, I would like to recognize Congresswoman 
Velazquez for five minutes.
    Ms. Velazquez. Thank you, Chairwoman and thank you for 
allowing me to be part of this important hearing for some of us 
who come from the islands. I come from Puerto Rico. I live in 
Puerto Rico, and I grew up in Puerto Rico. I was working for 
the former Governor of Puerto Rico when Hurricane Hugo impacted 
the island.
    And I am amazed, frustrated. Just I do not understand why 
it has taken this long, two years, and the hurricane season is 
right--it started in July. To see that not a single permanent 
project is in the pipeline to be rehabbed.
    Homeland Security held a hearing just the other day, and we 
had the Acting Administrator, Peter Gaynor, indicating that the 
responsibility for the delay in the reimbursement to 
municipalities in Puerto Rico or the effective implementation 
of FEMA from the programs was due to our three's lack of 
capacity and communications.
    So, Mr. Marrero, can you please explain to me what type of 
communications do you maintain with FEMA, and what have been 
the challenges in the coordination of processes between both 
agencies?
    Mr. Marrero. First of all, Ms. Velazquez, thank you very 
much for all the work for the people of Puerto Rico and 
relationship that you have with the people of Puerto Rico.
    Well, first of all, I am a little bit appalled with those 
declarations. I am going to be honest. Since day one, we have 
been working very diligently in making sure that what we have 
been request, we deliver and excel. That includes the document 
that we provided back in November 2017 while we were responding 
to the immediate needs of the people of Puerto Rico.
    Not only that, with approval of the BBA back in February 
2008, we were required to develop a full recovery plan, and we 
did it in a timely fashion, and we also did it not only with 
the collaboration of FEMA, other agencies. We made it also 
consistent with the fiscal plan certified by the oversight 
board. Not only that, we were required to establish a 
centralized oversight authority with the Central Office of 
Recovery. We did it based on the model of Louisiana, New York, 
New Jersey, Mississippi, and many other locations.
    Not only that, we were also required to hire third-party 
experts because we did not have the knowledge and expertise, 
even though we have managed Federal funding in the past without 
any finding. We conducted a very robust procurement processes, 
and we ended up having a top notch team that includes Deloitte 
for the financial controls----
    Ms. Velazquez. So are you telling me that there is no 
reason as to why the money has not made it to Puerto Rico?
    Mr. Marrero. The reason why the money has--by the way, we 
did all that. And because of that, we were able to take over 
the reimbursement process. I know that you remembered that 
since day one, FEMA controlled the reimbursement process in 
Puerto Rico as opposed to other states. We developed the 
policies, procedures----
    Ms. Velazquez. And why is that?
    Mr. Marrero. Because of the fiscal condition of Puerto 
Rico. They thought----
    Ms. Velazquez. So you have done everything that you have 
been asked.
    Mr. Marrero. Yes, ma'am.
    Ms. Velazquez. And yet, the people of Puerto Rico are 
subjected to the delay, putting lives at risk once again.
    So let us talk about Vieques, the hospital in Vieques. As 
we know, the Navy used Vieques for military practices. There is 
environmental contamination in Puerto Rico. The Navy was out of 
Vieques under George W. Bush. Promises were made, and still 
here we are with a hospital that is not operational, with the 
challenge of the lack of transportation for the people of 
Vieques to go to the mainland Puerto Rico to get medical 
services.
    Have you received--because all I have seen is a press 
release that was put out by FEMA. After first they say we going 
to rebuild--we going to build a new hospital, then they came 
back and they say we going to rebuild whatever you have left of 
a hospital in Puerto Rico. I complained and I demanded a new 
facility, and just recently they issued a press release saying 
that they concurred that they should have a new hospital.
    Have you received any form of communication from FEMA?
    Mr. Marrero. No, ma'am. We are still waiting for the formal 
determination letter, as well as the final number.
    Ms. Velazquez. My next question is considering that 90 
percent of Federal contract spending for disaster relief and 
recovery has been awarded to firms on the mainland, I would 
like to know what you are doing and what plans do you have to 
facilitate local contracting? We have the best engineers. We 
have great construction companies in Puerto Rico that have done 
work in other Caribbean islands. We need to promote economic 
development. We have to provide a level playing field for those 
Puerto Rican contracting firms to be able to get into the 
Federal----
    Ms. Tlaib. Thank you so much, Congresswoman Velazquez.
    You can go ahead and answer those questions.
    Mr. Marrero. Sure, I could not agree more with you. I come 
from a family with a pop and mom shop. That is the reason how 
we were able to move forward.
    So definitely, even though there is some constitutional 
limitation, Congresswoman, we really want to make sure that 
this is not about disaster recovery only. This is about 
economic recovery. This is a moonshot opportunity for the 
people of Puerto Rico to make sure that we do it the right way.
    So what we have done. Well, first of all, we increased the 
minimum wage in the construction industry to make sure that we 
have more folks in the construction industry.
    Second, as part of the action plan that we developed for 
the CDBG funds, we also included construction loans and other 
mechanisms in order to allow local companies to have the 
financial bandwidth in order to participate in the processes 
because many of the requirements on the FEMA and HUD side will 
require some bonding requirement a local company will not be 
able to satisfy. So that is why we are really making sure that 
we use not only the FEMA program but also CDBG programs to make 
sure that the local companies are well equipped because, as you 
mentioned, we have to make sure that we get it right.
    So once the significant funding is used, what is going to 
happen? Well, we have to make sure that the people of Puerto 
Rico are trained. And I agree. They are top notch 
professionals. Not only to help in Puerto Rico, but if 
something happens somewhere in California, New York, Florida, 
or Texas, the Puerto Rican companies can also participate.
    Ms. Tlaib. Thank you so much.
    I would like to thank all of our witnesses for testifying 
today.
    And without objection, all members will have five 
legislative days within which to submit additional written 
questions for the witnesses to the chair, which will be 
forwarded to the witnesses for their response.
    I ask all our witnesses to please respond as promptly as 
you are able to.
    Again, this hearing is adjourned.
    [Whereupon, at 5:24 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
